<html>
<title> - FREEDOM OF CONSCIENCE FOR SMALL PHARMACIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




              FREEDOM OF CONSCIENCE FOR SMALL PHARMACIES

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                     WASHINGTON, DC, JULY 25, 2005

                               __________

                           Serial No. 109-26

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-612                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
SAM GRAVES, Missouri                 DANIEL LIPINSKI, Illinois
TODD AKIN, Missouri                  ENI FALEOMAVAEGA, American Samoa
BILL SHUSTER, Pennsylvania           DONNA CHRISTENSEN, Virgin Islands
MARILYN MUSGRAVE, Colorado           DANNY DAVIS, Illinois
JEB BRADLEY, New Hampshire           ED CASE, Hawaii
STEVE KING, Iowa                     MADELEINE BORDALLO, Guam
THADDEUS McCOTTER, Michigan          RAUL GRIJALVA, Arizona
RIC KELLER, Florida                  MICHAEL MICHAUD, Maine
TED POE, Texas                       LINDA SANCHEZ, California
MICHAEL SODREL, Indiana              JOHN BARROW, Georgia
JEFF FORTENBERRY, Nebraska           MELISSA BEAN, Illinois
MICHAEL FITZPATRICK, Pennsylvania    GWEN MOORE, Wisconsin
LYNN WESTMORELAND, Georgia
LOUIE GOHMERT, Texas

                  J. Matthew Szymanski, Chief of Staff

          Phil Eskeland, Deputy Chief of Staff/Policy Director

                  Michael Day, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Vander Bleek, Mr. Luke, R.Ph., Pharmacist, Fitzgerald & Eggleston 
  Pharmacies.....................................................     4
Nix, Ms. Sheila, Senior Policy Advisor, Office of Governor 
  Blagojevich....................................................     6
Patton, Mr. J. Michael, M.S., CAE, Executive Director, Illinois 
  Pharmacists Association........................................     8
MacLean, Ms. Linda Garrelts, R.Ph., CDE, Clinical Assistant 
  Professor of Pharmacotherapy, Washington State University......    11
Kelly, Ms. Megan.................................................    13

                                Appendix

Opening statements:
    Manzullo, Hon. Donald A......................................    39
    Velazquez, Hon. Nydia........................................    42
Prepared statements:
    Vander Bleek, Mr. Luke, R.Ph., Pharmacist, Fitzgerald & 
      Eggleston Pharmacies.......................................    43
    Nix, Ms. Sheila, Senior Policy Advisor, Office of Governor 
      Blagojevich................................................    45
    Patton, Mr. J. Michael, M.S., CAE, Executive Director, 
      Illinois Pharmacists Association...........................    56
    MacLean, Ms. Linda Garrelts, R.Ph., CDE, Clinical Assistant 
      Professor of Pharmacotherapy, Washington State University..    59
    Kelly, Ms. Megan.............................................    71
Attachments:
    NARAL Pro-Choice America.....................................    75
    Gandy, Ms. Kim, President, National Organization for Women...    82

                                 (iii)

 
               FREEDOM OF CONSCIENCE FOR SMALL PHARMACIES

                              ----------                              


                         MONDAY, JULY 25, 2005

                   House of Representatives
                                Committee on Small Business
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2360, Rayburn House Office Building, Hon. Donald A. Manzullo 
[chair of the Committee] Presiding.
    Present: Representatives Manzullo, Musgrave, King, 
Fortenberry, Velazquez, Grijalva, and Sanchez.
    Chairman Manzullo. Before we begin receiving testimony from 
the witnesses, I want to remind everyone that we would like 
each witness to keep all testimony to about 8 minutes. There is 
a box there. With green, you are okay. Yellow you have about a 
minute to go. Red, you are supposed to stop. We don't have the 
tyranny of the voting bell, so we will have plenty of time for 
questions and plenty of time for your testimony.
    The committee will hear first from Luke Vander Bleek, 
constituent, a pharmacist who owns five different pharmacies in 
and around the congressional district that I represent. Luke 
has filed a lawsuit challenging Illinois Governor Rod 
Blagojevich's emergency ruling that requires all pharmacies to 
fill all contraception prescriptions without delay.
    Next we will hear testimony on behalf of Illinois Governor 
Blagojevich. Sheila Nix plays a central advisory role in 
determining regulatory communications and regulatory policies 
of the administration. We invited the Governor to come, and it 
was just impossible to coordinate his schedule with ours.
    We appreciate the fact that our offices went back and forth 
looking for days that would work, and it just simply would not 
work out. We wanted to have this hearing prior to the effective 
date of the rule, which is the middle of August. So, Ms. Nix, 
we appreciate your coming here on behalf of the Governor.
    The committee then will hear from Mike Patton, Executive 
Director of the Illinois Pharmacists Association.
    Our next witness is Linda Garrelts MacLean. She is a 
Clinical Assistant Professor of Pharmacotherapy, Washington 
State University's College of Pharmacy. She has been a pharmacy 
owner for 20 years plus. Additionally, Ms. MacLean was 
instrumental in helping enact a program that has been 
replicated in half a dozen or more other states that addresses 
the desires of patients while respecting their religious and 
moral and conscience beliefs of the pharmacists.
    Finally, our last witness is Megan Kelly, wife, mother and 
art teacher from Geneva, Illinois, which is in the Speaker's 
district.
    The subject before this committee today deals with the 
negative impact on small pharmacies that operate under the 
strict law that requires pharmacists to fill all prescriptions, 
even if doing so violates their moral and professional beliefs. 
I also want to discuss alternatives that will ensure that women 
who want a certain prescription have access to it while 
preserving the integrity of the pharmacist. Many individuals 
become physicians, nurses, pharmacists, or other healthcare 
workers based on a deeply held conviction of service to others.
    Each of these individuals has a developed sense of 
conscience based on personal experience, individual ideology, 
religious beliefs, or cultural influences. The primary debate 
surrounding this issue relates to a pharmacist's moral 
opposition to filling prescriptions for emergency 
contraception, also referred to as the morning-after pill.
    On April 1, 2005, Illinois Governor Rod Blagojevich issued 
an emergency rule that requires pharmacies in the State that 
sell contraceptives to fill all prescriptions for FDA-approved 
contraceptives without delay. That rule is currently before the 
Joint Committee on Administrative Rules to determine whether it 
should become permanent. Several pharmacists have filed 
lawsuits, challenging the rule, and one of those individuals is 
here today. The right to refuse to participate in acts that 
conflict with an ethical or religious conviction is accepted as 
an essential element of a free society.
    What happens, however, when government forces a business to 
violate those beliefs? Many pharmacies in small communities may 
not have another pharmacist who can simply fill a prescription 
for the pharmacist with a moral objection, nor can they easily 
transfer the prescription to another pharmacy nearby. Under the 
Illinois rule and proposed Federal legislation, such pharmacy 
would be forced to order the product under their standard 
procedures for ordering other out-of-stock drugs, even if it 
violates their personal beliefs and professional standards.
    This will not only violate the pharmacist's conscience, but 
may also be extremely costly for the business. Pharmacies do 
not stock every drug that is currently on the market for 
economic reasons. This rule could become very expensive for 
pharmacies that are forced to order the morning-after pill when 
they otherwise would not stock it.
    So what happens if a pharmacy owner refuses to fill a 
prescription despite the new mandates. Many of the duty-to-fill 
requirements have imposed stiff penalties on pharmacies who 
have continued to allow pharmacists to exercise their 
conscience.
    Pharmacies could be subject to fines or even suspension of 
their licenses. If a pharmacy shuts down, especially in small 
communities such as Morrison, Illinois, and in many of the 
other rural areas I represent, other businesses will also be 
affected. If people have to go to the next town to pick up 
their prescriptions, they may fill up their gas tanks or buy 
groceries as well. The entire community is affected if a 
pharmacy is forced to close down not only socially but also 
economically.
    No one, least of all a health care provider, should be 
required to violate his or her conscience by participating in 
procedures that he or she deems harmful. The government should 
never force anyone to choose between his business or his 
beliefs.
    The purpose of the hearing is to explore the impacts that 
extreme duty-to-fill legislation will have on small pharmacies, 
obviously small businesses. I am also hoping to discuss 
alternatives that will ensure that women have access to 
medicine while preserving the beliefs of the pharmacist. I look 
forward to the testimony of all the witnesses this morning, 
especially those who have traveled great distances.
    [Chairman Manzullo's statement may be found in the 
appendix.]
    I turn to my colleague, the ranking member, Ms. Velazquez, 
for her opening statement.
    Ms. Velazquez. Good morning, thank you, Mr. Chairman. We 
have come together on a Monday morning to discuss an issue that 
has absolutely nothing to do with the jurisdiction of the House 
Small Business Committee, nor is it even a small business 
issue.
    I must say that as the ranking member of this Committee, I 
am appalled that we would even hold a hearing on a women's 
right to receive contraception. As a female member of Congress, 
I am even more outraged. This is insensitive to not only the 
women that sit on this Committee, but also to the women across 
the country. Whether or not a small pharmacy in any State 
chooses to fill prescriptions for birth control is not an issue 
for this Committee to decide upon.
    It is a women's rights issue, her right to access health 
care, and her right to live her life as she pleases. The 
Supreme Court has been strong in upholding that women have the 
right to access birth control. This is a basic right. The 
American Medical Association, one of the most respected and 
nonpartisan organizations, has also stated that this right of 
access should not be impeded and that this is critical to 
women's health. Clearly, pharmacies should not be using their 
discretion, when there is a valid prescription for any drug, 
and they should not be able to pick and choose between which 
types of contraception they will distribute.
    I find it very ironic that while Republicans are so fixed 
on ensuring that the Federal Government does not infringe on an 
individual's rights, that when it comes to the rights of women, 
they are anything but hesitant to impose their guidelines. 
Whether it be on an individual's right to choose or a women's 
right to access health care, the bottom line is that these 
rights must always be protected.
    What is happening today is quite clear. This Committee is 
being used as a tool to push the conservative, ideological 
agenda of one person forward. Nowhere do these protections and 
rights fall under the jurisdiction of the Small Business 
Committee. Let me tell you, to even think that an issue of this 
scope that impacts women across the United States and their 
access to contraception and health care should be handled 
during a Small Business Committee hearing is simply a disgrace.
    What will be next for this Committee? Well, while we talk 
about women and contraception, why not start talking about men 
and their ability to access Viagra? It simply makes no sense 
that when there are so many pressing issues for the small 
business community today, all of which desperately need the 
attention of Congress, this Committee chooses to spend its time 
focusing on a women's right issues.
    Between skyrocketing health care costs, small businesses 
having to pay high fees to use lending programs and a venture 
capital program that has been shut down now for 9 months, there 
are clearly areas that this Committee need to address. This is 
also coming from a Committee that has not passed a legitimate 
bipartisan SBA reauthorization bill since 2001. While these 
initiatives are clearly not moving forward, we sit here and 
talk about a women's right issue.
    With all that is going on in the small business community 
today, before we start addressing issues outside of our 
jurisdiction, we need to address the pressing issues we do have 
jurisdiction over. I am not saying that the issues we will be 
addressing today, a woman's right access to health care, is not 
of the utmost importance, it is just that I do not believe that 
the House Small Business Committee is the most appropriate 
venue for a women's rights issue to be heard.
    Thank you, Mr. Chairman.
    [Ranking Member Velazquez's statement may be found in the 
appendix.]
    Chairman Manzullo. The jurisdiction of the Small Business 
Committee, as stated in the rules, "The Committee on Small 
Business shall study and investigate on a continuous basis the 
problems of all types of small businesses."
    That is how broad the oversight jurisdiction is. It is 
interesting that when the Democrats controlled this place in 
the 102nd Congress, the chairman at that time, Chairman 
LaFalce, held a hearing called Consumer Protection and Patient 
Safety Issues Involving Crisis Pregnancy Centers. I think that 
is sort of interesting. Perhaps that same argument could have 
been made.
    The purpose of this hearing is directly within the 
jurisdiction of the Small Business Committee because there is 
Federal legislation that is pending. We have an absolute right 
to review the impact of any regulation or regulations on small 
businesses in the country.
    The first witness is Luke Vander Bleek.
     Mr. Vander Bleek, we look forward to your testimony.

    STATEMENT OF LUKE VANDER BLEEK, FITZGERALD & EGGLESTON 
                           PHARMACIES

    Mr. Vander Bleek. Thank you, Chairman Manzullo, and thank 
you also for the honorable members that have made their 
presence here this morning. Chairman Manzullo already discussed 
why we are here and the order by the Governor. I was interested 
in Congresswoman Velazquez's comments here at the opening. I 
reasonably tried to make my statements here relevant to the 
Small Business Committee.
    I own, to correct what the chairman said earlier, I own 
five pharmacies--I actually own four pharmacies in the State of 
Illinois, two of which are in the Congressman's district. I 
have been presented with a mandate from the Governor of the 
State of Illinois that basically says that I have to put 
policies in place in my pharmacy to procure and dispense all 
forms of contraceptives, regardless of our current policies, 
forcing me to have to change my current policies.
    Currently in our pharmacies we carry all forms of 
contraceptives. The new class of medications that has become at 
issue is called the emergency contraceptives. These are 
products or blasts of hormones that are given after a woman has 
had sexual intercourse and has potentially conceived a child. 
My concern about this class of medications is scientific in 
nature at the beginning. One is that I have not been able to 
find any significant science that is able to convince me, as a 
pharmacist, that these products don't endanger a human embryo.
    Life begins at conception with the meeting of two 23-
chromosome gametes that forms a 46-chromosome new human being. 
Now, I have a concern for that new human being. As a religious 
person and as a morally convicted person, I cannot practice 
pharmacy or own pharmacies in any State whereby there is a 
mandate that I involve myself with products that are 
abortifacient in nature. Because there is no scientific 
evidence that convinces me in a compelling way that these 
products will not have the opportunity to extinguish the life 
of a human embryo, I will not stock and will not dispense these 
products. It has been a policy in my store since the product 
was first FDA approved.
    But to make this relevant, is that there are, and I don't 
really have to tell this Committee this, that there is a finite 
number of investors that are willing to invest in small under-
served markets all across the country. Two of the pharmacies 
that we own right now in communities are where there were no 
pharmacies there for a period of time. One didn't have a 
pharmacy for 8 years, the others did not have a pharmacy for 6 
months and these two small towns that we placed pharmacies in 
did not have pharmacies, not for us wanting to put pharmacies 
in these markets. We were unopposed in every way in putting 
pharmacies in these markets.
    I think it is very well understood the value of a community 
pharmacy is to the community and also to a small business 
marketplace. In every residential market, whether it is large 
or small, the pharmaceutical is an important ingredient, both 
from what you have said about the access of health care and 
also from an economic and financial model. Other complementary 
businesses in small markets are helped in large part by the 
presence of an anchor pharmacy.
    When a pharmacy leaves a small community, very often so 
goes the hardware store, the grocery store, the shoe store and 
all the other things that are consumer oriented. People travel 
outside their hometown to find a pharmacist and to get a 
prescription filled. Generally, they will fill other consumer 
needs while they are there. What I submit to you today is that 
by limiting the opportunity for pharmacists to own pharmacies 
in the State of Illinois to only those that want to conduct 
their pharmacy in an amoral format limits the number of 
investors into these small markets all over the country.
    So, you know, what is at risk for us personally as small 
business owners is that Joan and I are the parents of four 
small school-aged daughters. We have already decided that we 
will not continue to pursue ownership opportunities in 
pharmacies in Illinois and in an environment where licensure 
requires us to stock and dispense abortifacient drugs, whether 
it is this one or others that come to the market later on.
    Though it has required significant sacrifice, time and 
effort, Joan and I have enjoyed having the opportunity to own a 
small business in the State of Illinois. But even so, we are 
resolved that we will not invest and I will not practice in an 
environment in which we are legally obligated to be involved in 
the destruction of human life.
    Now that being said, with regard to our respect for our 
patients and for our people that might want us to dispense Plan 
B or products that may come to the market in the future that 
are used for the destruction of human life, I am a 
compassionate person, and we have a compassionate staff. We do 
not treat people in a denigrating way regardless of their 
request.
    Our policy is, in our pharmacy, when presented with a 
prescription that he have a moral objection to, is simply 
inform the patient in a quiet, confidential manner that we 
don't stock or procure the product because of company policy. 
If a patient inquires as to why the company policy is enforced, 
we will make it known that we are uncomfortable with the 
science of the drug and that we are concerned with what it 
might do to human life. If a patient wants to know more about 
the mechanism of action of the drug or wants our counsel, we 
will clearly give that in a way that we do other requests for 
pharmacist counsel.
    That is the end of my statements. I have submitted also 
full testimony in writing.
    [Mr. Vander Bleek's statement may be found in the 
appendix.]
    Chairman Manzullo. The complete statements of all the 
witnesses will be made as part of the record. I would remind 
the Members of Congress that these mics are live at all times.
    Our next witness is Sheila Nix. Sheila represents the 
Governor of the State of Illinois. Ms. Nix, we look forward to 
your testimony.

    STATEMENT OF SHEILA NIX, OFFICE OF GOVERNOR BLAGOJEVICH

    Ms. Nix. Thank you. Thank you, Chairman Manzullo and all 
the other members of the--
    Chairman Manzullo. Could you pull up the mic a little 
closer or maybe just push it down a little bit.
    Ms. Nix. Okay. Thank you, Chairman Manzullo and all the 
other members of the Committee on Small Business, for giving us 
the opportunity to testify today.
    My name is Sheila Nix, and I am a senior adviser to 
Illinois Governor Rod Blagojevich. I am happy to be here today 
to talk about the Governor's decision in support of women's 
health care.
    Just as a beginning, the Governor didn't come to this issue 
in isolation. He, since he has took office, has been working on 
expanding health care access for women, children and families 
in Illinois and has expanded access to health care through the 
KidCare and FamilyCare program, and now Illinois is able to 
cover 313,000 more men, women and children and working 
families.
    He also created I-SaveRx, which is a plan to provide 
Illinois residents access to affordable prescription drugs in 
Canada and Europe. He also created the Illinois Healthy Women 
Initiative that helps 120,000 women leaving Medicaid with basic 
health care and reproductive health care coverage. He has, also 
on the issue of contraceptives, required legislation that 
requires private insurers to cover all FDA-approved 
contraceptives, so that all women in Illinois now have 
contraceptive coverage through their private insurance plan as 
well.
    I will talk a little bit about what led to his decision on 
this rule. In February, the Illinois Department of Financial 
and Professional Regulation received complaints from a doctor's 
office. The complaint was that their patients were unable to 
fill two prescriptions for emergency contraception at a 
downtown Chicago pharmacy. The complaint stated that the 
pharmacist said, "I don't fill those" and advised the caller to 
call back several hours later when a different pharmacist would 
be on duty.
    When Governor Blagojevich heard about these cases and other 
cases in Illinois and around the country about women not being 
able to get their birth control pills filled, he directed the 
Illinois Department of Financial and Professional Regulation to 
make sure--to issue a rule to make sure that women would not be 
denied this basic health care need. The rule is meant to ensure 
that all Illinois pharmacies dispense birth control 
prescriptions without hassle, without lecture and without 
delay.
    There is a couple aspects of the rule that in some 
discussions have been misunderstood. I want to take this 
opportunity to clarify that. First, the rule does not apply to 
any individual pharmacists. The rule is directed at pharmacies, 
a class of pharmacies in the retail business that are holding 
themselves out in the business of filling prescriptions, things 
like CVS, Walgreens, Osco, those types of entities. The rule 
applies to medications identified as preventing pregnancies by 
the Food and Drug Administration.
    So we are relying on the definitions provided by the Food 
and Drug Administration in clarifying the rule, and it includes 
both monthly birth control pills and emergency contraception.
    Let me make one more thing clear, because this has been 
another source of confusion. The rule does not apply to RU-486. 
As a matter of fact RU-486 cannot be dispensed by a pharmacy or 
pharmacist. It has to be administered by a doctor. So to be 
clear, the rules does not apply to RU-486, just contraceptives 
as defined by the Food and Drug Administration.
    The rule directs pharmacies in the business of dispensing 
contraceptives to fill valid, lawful prescriptions for 
contraception without delay. If the pharmacy is not in the 
business of dispensing contraceptives, the pharmacy is not 
subject to the rule. So to be clear on that, if there is an 
individual pharmacy that is owned by someone like Mr. Vander 
Bleek who has an objection to providing contraceptives, they 
can choose not to provide contraceptives at all and the rule 
does not pertain to them.
    If the prescribed medication is not in stock, the pharmacy 
must obtain medication through the regular process for ordering 
contraception. The other thing that has been clarified now that 
our permanent rule is going forward in lieu of the emergency 
rule, is that there was some concern that the term 'without 
delay' meant that people were allowed to cut in line, come in, 
walk to the front of the line and get their prescription. 
Clearly, that wasn't what we intended. So in the permanent 
rule, "without delay" is defined to mean in the normal course 
of filling a prescription.
    The Pharmacists Association also asked us to clarify to 
make sure that the pharmacist could still do their job checking 
drug interactions, making sure there is no allergies to that 
type of procedure. Again in the permanent rule, that will be 
clarified.
    The emergency rule is currently in effect, and the 
permanent rule hearing is scheduled for August 16th. So it is 
our understanding at that time that the temporary rule will go 
out and the permanent rule will go into place.
    The rule is important to make sure women have access to 
health care, and in particular, to make sure that women's 
decisions made with her doctor about her health care are 
respected. The interesting thing is that as we have gone 
through this and talked to many of the physicians--and I think 
it was mentioned that the AMA is in support of this legislation 
and rule--that contraceptives can be used for many things and 
other health conditions.
    They are often prescribed for things like migraines, acne, 
regulation of the cycle, pain and in some cases emergency 
contraception has been used to stop hemorrhaging unrelated to 
the reproduction side of it. So we think that it is important 
if a woman and her doctor make a decision on what is the 
appropriate drug for her health, that she should be able to go 
to a pharmacy in the business of providing prescription drugs 
and get that prescription filled without delay.
    Governor Blagojevich has ruled to make sure that a woman's 
right to get her prescription for birth control filled without 
delay, without hassle and without a lecture is an important 
part of providing necessary health care for Illinois families 
and Illinois communities.
    Thank you very much.
    [Ms. Nix's statement may be found in the appendix.]
    Chairman Manzullo. Thank you.
    Our third witness is Michael Patton. Mr. Patton, we look 
forward to your testimony.

     STATEMENT OF J. MICHAEL PATTON, ILLINOIS PHARMACISTS 
                          ASSOCIATION

    Mr. Patton. Thank you very much. Good morning and thank you 
to Congressman Manzullo for inviting me to speak today before 
this Committee on the issue of Freedom of Conscience for Small 
Pharmacies.
    For the record I am not a pharmacist. I run the Pharmacists 
Association, and we represent about 2,500 pharmacists in the 
State of Illinois, both in the independent retail setting, the 
chain stores, hospitals and long-term care. So, for the record, 
I would like to clarify that I am not a pharmacist.
    Ladies and gentlemen of the House Committee on Small 
Business, on April 1, Illinois Governor Rod Blagojevich invoked 
a rule providing all pharmacists to provide contraceptives 
based on valid lawful prescriptions without delay. As initially 
implemented, this emergency rule posed a substantial risk to 
patient care and created a substantial challenge for 
pharmacists as licensed in our State.
    Since that time, the emergency ruling has been modified, 
and the proposed language will be reviewed by the Joint 
Committee on Administrative Rules on August 16th. The language 
is now being promulgated as follows, as I have listed in my 
testimony, and I won't take your time to read it there for your 
reference.
    As rulings now are being enforced, the Illinois Pharmacists 
Association on behalf of its members has taken a formal 
position that we can accept these modifications. However, we 
feel it is imperative that the reference to health care 
personnel, as cited in the Illinois Health Right of Conscience 
Act, be amended to specifically include pharmacists by 
reference than simply by inference as health care personnel. 
The initial impact of this edict was harrowing for Illinois 
pharmacists as many of the small rural communities did not 
carry emergency contraceptive, often indicated as Plan B.
    These pharmacies did not stock this item because of any 
personal or religious beliefs, but simply the principles of 
supply and demand. As one pharmacy told me they had two 
requests for it in about 5 years, so it is not a product that 
they inventoried. Because what we are finding is the reality in 
the small communities that if a women finds herself in need and 
determines that with the advice of her physician, that 
pregnancy could be imminent, then she oftentimes will seek a 
pharmacy in a nearby metropolitan area to preserve and protect 
her privacy and anonymity. So what we find is these small rural 
pharmacies have very little demand, not because the need isn't 
there, but due to privacy issues oftentimes a woman might go to 
another area.
    Now these pharmacies are being challenged as to how to 
respond to the new ruling of the Governor. Most still do not 
carry the product, but have established a relationship for a 
personal referral with a nearby chain store, who will now 
typically stock this product due to the new mandate and the 
corporate requirement for compliance. The ruling provides for 
the ability of the pharmacist with the patient's permission to 
transfer the prescription to a local pharmacy of the patient's 
choice or return the prescription to the patient.
    Unfortunately, what we are now finding is that some 
individuals are testing select pharmacies to discern the 
willingness of the pharmacy to fill their prescription. A case 
in point is a woman who would drive over 100 miles to a very 
small rural pharmacy to get her prescription filled when she 
had passed multiple metropolitan areas.
    This initiative has been utilized now at several pharmacies 
that happen to be owned by Illinois legislators. This has 
caused concern and fear for rural pharmacies that they may also 
be targeted in its plot to force pharmacies into compliance, 
thereby creating the need for many pharmacies to now inventory 
this product in the event they might be tested.
    This situation has caused many pharmacists to examine their 
own profession and dedication. They feel they no longer have 
the right to determine their own fate in the dilemma of 
dispensing. Should they or shouldn't they dispense?
     Pharmacists are now beginning to question their rights 
under the new mandate. Irrespective of their personal beliefs, 
many pharmacists are now facing a reality. If it is oral 
contraceptives today, what might the prescription be that will 
be mandated tomorrow?
    Pharmacists are health care professionals as defined in 
Illinois statute and expected to be treated as the 
professionals that they are trained to be. The commitment of 
the pharmacist is to preserve and protect the health and safety 
of their patients.
    This can quite easily be met by allowing pharmacists to do 
as they always have. If a medicine is not in stock, they may 
offer to order it for the patient or in the event of a time-
sensitive prescription like Plan B, they make a referral to a 
fellow local professional. This ruling has created limited 
economic hardship on many small pharmacists, but the threat of 
a noncompliance complaint for legitimately not having this 
product in stock has created a much greater burden on all 
pharmacists.
    As a result, some pharmacists are questioning the viability 
of maintaining their practice in the State of Illinois. Some 
with whom I have spoken are contemplating relocating to other 
nearby States that will allow them to practice without fear of 
legal intervention. This consideration will undoubtedly have 
significant impact on the availability, affordability and 
access to quality health care in many remote rural areas, 
rendering those patients in greatest need to drive greater 
distance to have their prescriptions filled.
    Only time will tell the true cost implication of these 
decisions. Pharmacists by nature are quite diligent in their 
efforts to comply. But the outside influence of certain 
individuals testing selected pharmacists has created new fear 
that is greater than any inventory item. These pharmacists fear 
their license may be in jeopardy if they fail to comply with a 
mandate such as that, irrespective of their personal beliefs. 
The cost of compliance has become an emotional as well as an 
economic burden.
    Some are entertaining the option of carrying no oral 
contraceptives so as not to be subject to the rule, and therein 
further eliminating the ability to have health care for women 
in need. Also, the chairman has referenced a number of other 
economic issues that could become subject to this. The Illinois 
Pharmacists Association has also urged the Governor to give 
further consideration to recognize the Right of Conscience for 
Pharmacists. But for those choosing to be so trained, we 
suggest allowing properly trained pharmacists to dispense Plan 
B without a prescription under the formal protocols of a 
licensed physician.
    This is now being done in at least six other States. This 
would allow pharmacists to be properly trained to counsel and 
dispense and pharmacies to be willing to dispense emergency 
contraception without a prescription. This, we feel, addresses 
the availability of emergency contraception and also provides 
the potential for savings as well.
    Thank you, ladies and gentlemen, for the privilege and 
opportunity to be with you here today. I will be happy to try 
to address any questions you might have.
    [Mr. Patton's statement may be found in the appendix.]
    Chairman Manzullo. Thank you very much. Our next witness is 
Linda MacLean, testifying on behalf of the American Pharmacists 
Association. We look forward to your testimony.

     STATEMENT OF LINDA GARRELTS MacLEAN, WASHINGTON STATE 
                           UNIVERSITY

    Ms. MacLean. Thank you. Well, good morning, Mr. Chairman, 
and members of the Committee. Thank you for the opportunity to 
appear before you today and present the views of the American 
Pharmacists Association, and I will be referring to that 
organization as APhA throughout the rest of my testimony.
    I am Linda Garrelts MacLean, a pharmacist and an active 
member of APhA. I have been in practice about 27 years and am 
the former co-owner of two community pharmacies in Spokane and 
Deer Park, Washington.
    APhA is the national pharmacist association that is the 
largest in the United States. APhA members practice in 
virtually every area of pharmacy. APhA appreciates the 
committee's investigating the impact duty-to-fill proposals 
will have on small pharmacies. I will be summarizing my written 
statement, which was submitted to the Committee.
    Recent activity has magnified the conscience clause issue 
and does not reflect reality. The vast majority of pharmacists 
dispense the vast majority of prescriptions. Regardless, 
pharmacists want to retain the ability to opt out of providing 
services to which they object. New drugs can be introduced into 
the market. A pharmacist should not be expected now to sign off 
on all future products.
    Conscious clauses are a standard way to address the 
situation and often applied broadly to physicians, nurses as 
well as pharmacists. In 1998, APhA adopted a two-part policy 
which supports the ability of a pharmacist to opt out of 
dispensing a prescription for personal reasons and also 
supports the establishment of systems so that the patient's 
access to health care is not disrupted. The policy supports 
stepping away but not stepping in the way.
    There are several types of systems that could be put in 
place to ensure patients receive access to their care. To 
begin, a pharmacist should carefully consider where to 
practice. A pharmacist who objects to physician-assisted 
suicide would choose a practice outside the State of Oregon or 
outside a practice that participates. A pharmacist with 
personal objections to dispensing hormonal contraceptives would 
avoid practicing in a Title X clinic.
    Other systems include staffing the pharmacy so that another 
pharmacist in the same pharmacy can dispense the prescription 
and referring or transferring the prescription to another 
pharmacy, something that the Illinois executive order did not 
allow. An active communication plan also can help. When 
prescribers and patients know which pharmacies carry certain 
drugs, patients can be directed to those pharmacies.
    For example, in rural Washington State, potential patients 
are directed to pharmacists who participate in Washington's 
emergency contraceptive care program. And, in areas where no 
pharmacist will dispense a medication, it may be the prescriber 
who chooses to dispense the product. These systems should be 
established proactively.
    Before a pharmacist is presented with a prescription--and 
it should be seamless, the pharmacist-patient interaction 
should mirror what occurs with any prescription. If the 
prescription cannot be dispensed, then the patient must be 
aware of available options. Pharmacists should not use their 
position of power to berate patients to their personal beliefs 
or to obstruct patient access to therapy, such as refusing to 
return a patient's prescription.
    To balance the negative reports, I would like to describe 
the efforts of pharmacists to increase access to emergency 
contraception. Pharmacists in seven States have legal authority 
to describe and dispense emergency contraceptives under 
collaborative agreements with prescribers. Legislation to 
establish similar programs were introduced this year in nine 
different States. Where pharmacists have this authority, 
patients may go directly to a participating pharmacist to 
receive their prescription for emergency contraceptives, 
expediting access to care when time is of the essence.
    While serving as president for the Washington State 
Pharmacists Association, I was instrumental in helping enact 
emergency contraceptive authority in Washington, the first 
State to do so.
    Since then, hundreds of pharmacists have been trained and 
thousands of emergency contraception interventions have been 
done by local pharmacists. Duty-to-fill requirements can impact 
the clinical role of the pharmacist by conflicting with the 
pharmacist's legal responsibilities to assess the clinical 
safety and appropriateness of every prescription.
    If pharmacists were forced to act as robots, and dispense 
all lawfully prescribed prescriptions, then patients would be 
at risk for receiving dangerous but lawful prescriptions.
    For example, a prescription calling for an overdose for an 
antibiotic to which the patient is allergic is lawful, or a 
prescription calling for an overdose that might be 10-fold what 
it should be is lawful but likely fatal to the patient.
    The clinical role of the pharmacist was overlooked in 
Illinois Governor Blagojevich's April 1st duty-to-fill order. 
After pharmacies expressed concerns, the Governor clarified 
that the order was not intended to "interfere in any way with a 
pharmacist's responsibility to conduct prospective drug 
utilization review." Illinois patients are fortunate that the 
Governor was willing to clarify his order, but other patients 
might not be as fortunate.
    Duty-to-fill proposals affect small business by dictating 
how the business must accommodate its staff, in this case the 
pharmacist. For example, some proposals would require a 
pharmacy to order a product if it is not in stock, a decision 
that should be left up to the pharmacy. Some pharmacies may be 
willing to order a drug, but depending on the patient's needs, 
the timing and the drug cost, special ordering of the drug may 
not be a viable option. The real-world solution to these 
situations is that patients are referred to other pharmacies or 
alternative arrangements are made.
    Potential unintended consequences of duty-to-fill proposals 
include a pharmacy choosing not to stock a certain product, a 
pharmacy rescinding its conscious clause protections or forcing 
pharmacists to participate in current opt-in programs. It is 
important to keep this issue in perspective.
    While any instance of a pharmacist obstructing access to 
medications must be addressed, such situations are rare. Of the 
nearly 3.3 billion prescriptions dispensed each year in the 
outpatient setting, proponents document few examples of 
refusals, leaving us to question the need for new laws, when 
better implementation and well implemented systems may be the 
answer.
    One individual's rights should not outweigh another's. Our 
policy balances the needs of the patient and the individual 
needs and duties of the pharmacist. Implemented well, patients 
receive care and pharmacists are not--will not be forced to 
ignore their personal beliefs.
    Thank you for the opportunity to share the perspective of 
pharmacists on this issue.
    [Ms. MacLean's statement may be found in the appendix.]
    Chairman Manzullo. Thank you. Let me ask all of you this 
question. Have any of you testified before a Congressional 
Committee before? All right. You are doing very well.
    Our last witness is Megan Kelly of Geneva, Illinois. We 
look forward to your testimony.

                    STATEMENT OF MEGAN KELLY

    Ms. Kelly. Thank you.
    Chairman Manzullo. Take a sip of water, sit back and relax 
and tell us your own story in your own words.
    Ms. Kelly. Thank you, good morning, I want to thank the 
Committee for inviting me today on the issue of pharmacist 
refusal. I appreciate your time and willingness to listen to my 
story. My name is Megan Kelly. I live in Geneva, Illinois. I am 
married, I am a mother and a high school art teacher.
    Recently, in trying to make a responsible decision about my 
health and family planning, I was humiliated and discriminated 
against by a pharmacist who refused to fill my prescriptions 
for birth control pills and emergency contraception based on 
her own personal views. This pharmacist put my health in danger 
by refusing to fill my prescription and imposing a delay in my 
ability to access my legally prescribed medication.
    On Sunday of 4th of July weekend I went to get my birth 
control prescription filled and found out I had no more refills 
left. When my usual pharmacist tried to contact my doctor, she 
was told that I had to make my annual appointment before I 
could get the prescription filled.
    My doctor was also out of town due to the fact that it was 
4th of July. After not being able to use my birth control pills 
for 3 days, my doctor recommended that I use the emergency 
contraception pill as a precautionary measure. That is why I 
tried to get both the birth control and the emergency 
contraceptive pill script filled.
    My doctor's office called my prescription into a local 
Jewel-Osco pharmacy in St. Charles, which is a town over but 
close to my home, and was told my medication was available. 
When I went to pick up my medication the pharmacist on duty 
said she would not fill my prescription because of her personal 
beliefs and that I would have to get my prescription filled 
elsewhere.
    I was shocked. I asked for the store manager who said he 
could not force his pharmacist to fill my prescription, and he 
was also not a pharmacist so he could not fill it. But they 
were willing to transfer it to another location.
    He also told me that there was a store memo that was put 
out that did say that it was okay for their company, for their 
pharmacists, to refuse their patient's prescriptions.
    I called the pharmacy district manager for Albertson's, 
Inc., who operates Jewel-Osco. She did confirm that this policy 
was true.
    After a bit of research, once I got home from this 
experience, I since learned that what I supported at the time 
was true that Jewel-Osco pharmacy in St. Charles was in 
violation of an emergency rule that Illinois Governor 
Blagojevich signed on April 1st, which was talked about, and 
the Joint Committee on Executive Rules is expected to meet to 
talk about whether to make the rule permanent in August.
    As a patient, I consult with my doctor about the best 
course of treatment. In writing my prescription my doctor is 
doing her job and acting in my best interest. I do not expect a 
pharmacist to breach that relationship I have with my doctor 
and endanger my health. When pharmacists refuse to dispense 
medicine, they are not doing their job. Their job is to 
dispense medication, not moral judgment. A pharmacist's 
personal views do not belong in my health care.
    As a consumer, I have a right to walk into any pharmacy in 
America and expect to have my prescription filled without 
unnecessary delays or discrimination. It is completely 
unacceptable for this store to refer customers to another 
provider at a different location. As in this case, as in my 
case, this practice can result in humiliation and based on the 
nature of the medication poses a health risk when the 
prescription is not filled in a timely manner. Birth control 
pills must be taken every day at the same time to be effective 
and the effectiveness of emergency contraception diminishes 
dramatically as time goes on.
    It is the responsibility of pharmacies to ensure that all 
individuals' needs are met and that no one becomes a target of 
discrimination. The Jewel-Osco pharmacy in St. Charles 
currently employs a pharmacist who is jeopardizing women's 
health by refusing to fill legal physician-prescribed family 
planning medication.
    The bottom line is this, if a woman and her doctor have 
already discussed the need for contraception, she should be 
able to walk into any pharmacy in America and expect to have 
her prescription filled without unnecessary delays or 
discrimination. Women should never be denied basic health care 
services by pharmacists who choose to impose their own beliefs 
on others.
    My story is not unique. It has happened to others, not only 
in Illinois but all across the Nation. I would like to thank 
you again for listening to my story.
    [Ms. Kelly's statement may be found in the appendix.]
    Chairman Manzullo. Thank you very much. We are going to set 
the 5-minute clock for members asking questions.
    Ms. Nix, I have a question with regard to the rule that you 
set forth on page 6 of your testimony. I have read through 
that. Then I read your summary on page 7, the second bullet 
point. Do you see that?
    Mr. Patton. To whom are you speaking?
    Chairman Manzullo. Ms. Nix, I am sorry. Do you see that?
    Ms. Nix. Yes.
    Chairman Manzullo. That says pharmacies that stock 
contraceptive medications must fill valid, lawful prescriptions 
for all contraception without delay. Where do you see that 
language in the proposed regulation?
    Ms. Nix. The first sentence says, "Upon receipt of a valid 
lawful prescription for a contraceptive, a pharmacy must 
dispense the contraceptive or suitable alternative permitted by 
the prescriber to the patient or the patient's agency without 
delay."
    Chairman Manzullo. That doesn't answer the question.
    Ms. Nix. I am sorry, what is your question?
    Chairman Manzullo. The question is that the comment that 
you said that pharmacies that stock contraceptive medications--
    Ms. Nix. Right.
    Chairman Manzullo. --implied that if pharmacies do not 
stock--
    Ms. Nix. That is correct.
    Chairman Manzullo. --emergency contraceptives, they are 
exempt from the rule. But that is not in the language of it.
    Ms. Nix. Let me see if I can find it where it says that you 
stock it--if you are out of it, you have to order in the normal 
course.
    Chairman Manzullo. All right.
    Ms. Nix. If your normal course is not to carry it, then you 
don't have to carry it.
    Chairman Manzullo. That is pretty loose.
    Ms. Nix. I think we have discussed that with the 
Pharmacists Association. There is a general understanding that 
it hasn't been a problem, but if we need to tighten that up--
    Chairman Manzullo. I am just saying there is a lot of 
confusion as to whether or not a pharmacist, a pharmacist does 
not believe in contraception at all, and does not stock it.
    Ms. Nix. Yes, that would not be a problem with our rule. If 
we would need to clarify something on our website about that we 
could do it.
    Chairman Manzullo. What about the Catholic health care 
organizations?
    Ms. Nix. Yes, they had contacted us as well and asked for 
some clarifications in the rule, which were provided. The other 
thing is that their pharmacies are within their hospital or 
association and are not the class of pharmacy that this rule 
applies to.
    Chairman Manzullo. So you discriminate among pharmacies 
based upon--
    Ms. Nix. The rule applies to pharmacies that are in the 
retail business of providing prescriptions. So that in the 
normal course of what they even advertise, you know, transfer 
your prescription here, it is those types of pharmacies that 
advertise themselves and the business and would like to fill 
people's prescriptions. If it is within a hospital system or 
others, the rule does not apply. We are dealing with the retail 
pharmacies that pharmacies deal with on a daily basis.
    Chairman Manzullo. Pharmacies and hospitals fill 
prescriptions--Ms. MacLean, could you clarify that for us?
    Ms. MacLean. Some institutional pharmacies do have 
outpatient pharmaceuticals now. That did not used to be the 
case but you are absolutely correct.
    Chairman Manzullo. So if you are under the umbrella of a 
Catholic hospital and you are a pharmacist, you don't worry 
about it. But if you have the same religious and spiritual 
beliefs as pharmacist Vander Bleek, then you are under the 
prescription of this law?
    Ms. Nix. If you are a retail pharmacy you are covered.
    Chairman Manzullo. You didn't use the word retail.
    Ms. Nix. That is what it refers to. Under the technical 
reading of the licensing it is retail pharmacies.
    Chairman Manzullo. So pharmacies and hospitals that are not 
considered to be retail, that is correct?
    Ms. Nix. That is correct. They are considered to be a 
different license.
    Chairman Manzullo. Then where does that say within this 
language that it refers only to--is it a division 1 pharmacy 
that is considered to be retail?
    Ms. Nix. Yes.
    Ms. MacLean. But there are some hospitals who do fill for 
outpatient use.
    Ms. Nix. In Illinois? In Illinois you are talking about?
    Ms. MacLean. I can't tell you Illinois.
    Ms. Nix. Yes. I think our pharmacy expert is here if we 
need to clarify it.
    Chairman Manzullo. You can ask him if he knows.
    If you could give your name and position for the record and 
give the answer, we would appreciate that. Spell your last 
name. Go ahead.
    Mr. Hughes. Thanks. My name is Pat Hughes, H-u-g-h-e-s. I 
am the General Counsel of the Illinois Department of Financial 
and Professional Relations, which regulates, among other 
things, the practice of pharmacy, the profession of pharmacy.
    In answer to your question about the classes of pharmacy, I 
think that sort of the tail end there hit the nail on the head. 
Division 1 pharmacy is the division that is referred to in the 
rule. That is a classic retail pharmacy that you might 
encounter. It is possible to put that pharmacy, you know, 
almost anywhere, but any retail pharmacy that is division 1 
would fall under the rule. Any other pharmacy, a traditional 
hospital pharmacy, that was not a division 1 pharmacy, the rule 
would not cover too, whether that is part of a Catholic 
hospital system or any other kind of hospital system.
    Chairman Manzullo. What if that hospital also does retail?
    Mr. Hughes. Occasionally a division 1 license could be on a 
hospital premise.
    Chairman Manzullo. Did that occur in Illinois?
    Mr. Hughes. On a handful occasions. That rule would apply 
to any division 1 hospital--excuse me, any division 1 pharmacy 
regardless of where it is.
    Chairman Manzullo. Thank you very much.
    Ms. Velazquez.
    Ms. Velazquez. Ms. Nix, I would like to know how the 
Governor's emergency order will impact a pharmacist's ability 
to run and operate their business. How would you respond to 
some pharmacist's assertion that they will be unable to run 
their business if they personally object to emergency 
contraception? Does it provide for remedies to a pharmacist 
owner who objects?
    Ms. Nix. Yes. If a pharmacist/pharmacy owner objects to 
contraceptives, then they do not have to stock contraceptives.
    Ms. Velazquez. Some have expressed concern that the 
Governor's order could lead to pharmacies dispensing drugs that 
actually hurt women because of the requirements on the order. 
How does the order require that the safety of the patient is 
paramount?
    Ms. Nix. The rule clarifies--the permanent rule will make 
clear, and the temporary rule has also, that the pharmacist is 
to do their normal course of business, check drug interactions, 
do counseling, whatever is in the normal course. That is 
paramount. In the patient--there was an example mentioned 
earlier about a higher dose of antibiotics. Clearly that is not 
what is intended here. The permanent rule makes it very clear 
that pharmacists should do their normal course of business in 
patient safety before prescription.
    Ms. Velazquez. Ms. MacLean, in your testimony you talk 
about how your organization wants to protect a pharmacist's 
right to refuse filling prescriptions in a significant number 
of situations. Doesn't the ability of pharmacists to deny 
filling a prescription preserve the responsibilities of the 
prescribing physician?
    Ms. MacLean. Well, we actually have two systems in place in 
Washington. When a pharmacist steps away from a prescription, 
for example, for a Plan B medication, that pharmacist can call 
a neighboring pharmacy and transfer it over the phone. We can 
find out what their hours are, we can find out if they have it 
in stock. We can find out if they take the insurance company 
that the person is presenting with. So that is one situation 
where we can actually ensure that a women gets a medication 
that she wants by transferring the prescription.
    The second situation in Washington is that some pharmacists 
have prescriptive authority protocols in place. For example, I 
have one. I could write the prescription and dispense it, if it 
is appropriate for that one.
    Ms. Velazquez. But my question is, in the sense that how, 
if pharmacists by taking such action of denying filling a 
prescription, injects herself or himself between the patient 
and the doctors?
    Ms. MacLean. I look at pharmacists. It is one of the things 
that we actually train our students in pharmacy school about, 
is that the pharmacist acts on the patient's behalf, as a 
patient advocate.
    I can give you an example. I had a person come into the 
pharmacy not too long ago, that she was able to pay for the 
emergency contraceptive, that we would be able to administer 
for her, administer and dispense. We were unable to bill the 
type of insurance that she had, and so I picked up the phone, I 
called Planned Parenthood, and I said I think this is a 
candidate for you, can you help me out?
    So I acted as the patient's advocate. I was able to find 
out if they took her insurance, what the hours were, and I got 
instructions on how to get her there. So the pharmacist can be 
a facilitator.
    Ms. Velazquez. Let me phrase my question in a different 
way. I just want a yes or no answer. Would you agree there must 
be a balance when it comes to ensuring access for women to meet 
their reproductive needs and addressing the concerns of 
pharmacists?
    Ms. MacLean. I believe in balance.
    Ms. Velazquez. Ms. Kelly, I want to talk to you, and first 
I want to thank you for coming here and sharing your story. I 
know that this is not an easy experience for anyone. Before you 
went to the pharmacy, did you work with your doctor to 
determine the appropriate family planning medicine necessary in 
your situation, and how did it make you feel when the 
pharmacist told you it will not dispense these drugs because it 
was against his moral beliefs?
    Ms. Kelly. Yes, I did talk to my doctor, and she was the 
one that recommended this. I have been with this doctor for a 
while, and she knows my family plan that my husband and I have 
kind of developed for us.
    When I went into the pharmacy, I was shocked. I just had 
never heard of this really happening to anyone. I didn't think 
it was legal, but I didn't know about the Blagojevich's 
emergency ruling. But I figured it had to be illegal. So I was 
very shocked and embarrassed.
    Chairman Manzullo. Congresswoman Musgrave.
    Mrs. Musgrave. Thank you, Mr. Chairman, for holding this 
hearing today.
    My district has four large cities and then a lot of small 
towns. And the retail pharmacists in those small towns make an 
incredible contribution to the community, especially 
communities where there are a number of elderly folks that 
live.
    I so much appreciate what you said, Mr. Vander Bleek, about 
an anchor pharmacy and what it does for Main Street in small 
towns. And there will be a clothing store there and a grocery 
store still there, because people get their prescriptions 
filled and then they shop. It means a great deal.
    I guess I was taken aback by your testimony, Ms. Kelly. As 
the mother of four children, I wanted doctors to be available 
on holiday weekends, but they weren't. I wanted to be able to 
fill a prescription, even after it had run out, but, doggone 
it, they wouldn't do it anyway. So I faced inconveniences to 
me, living a very busy life. Before I even got into politics, I 
thought my life was busy.
    Sometimes I had to drive across town to get a prescription 
filled. I had to drive several miles. But I still did it, and 
it seems unseemly to me to compare a matter of inconvenience to 
a matter of conscience. I am taken aback that inconveniences in 
a person's life would weigh in such as a matter of deeply held 
beliefs. I think about those pharmacists in my communities and 
I think about what they do for the population there, and I am 
very respectful of their deeply held beliefs.
    I, for one, want to go on record saying this is a most 
appropriate matter for the Small Business Committee to take up. 
It affects the communities. It affects the livelihood. And I 
will tell you, what are we going to do next? Are we going to 
mandate that doctors forego their vacations, because I want 
them here on a holiday weekend? Are we going to say you have to 
extend your hours in your pharmacy because I need something at 
10 o'clock at night? Are we going to say, you have to be there 
on Sundays? Let's get real.
    The American consumer has a great deal of opportunity to 
buy what they need, to get what they want, but sometimes, they 
may have to wait 20 minutes longer to start their dinner party, 
and they may have to drive across town. But I think, in 
America, we expect our small business owners, such as 
pharmacists, to be able to exercise their moral beliefs.
    Thank you, Mr. Chairman.
    Chairman Manzullo. Congressman Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman.
    I ask unanimous consent to enter my entire statement into 
the record.
    Chairman Manzullo. All the statements of the witnesses and 
the members will be admitted into the record in their entirety, 
without objection.
    Mr. Grijalva. Thank you very much.
    It seems to me, at least according to the title given to 
the hearing, that we have been called to discuss freedom of 
conscience for small pharmacies. I do believe it is a 
misleading title. If we are honest and to the point, we are not 
actually talking about freedom of choice for small business 
pharmacies here, the underlying issue, in my mind, what is at 
stake is the freedom of choice period. We are here to talk 
about just one more way that the government can aid in tearing 
down a woman's right to access to methods of birth control.
    Quite frankly, and I want to associate myself with the 
ranking member's statement at the beginning, we are offended 
that under our jurisdiction, such programs at the 7(a) loan, 
the Micro loan, the 8(a) loan program and countless other SBA 
programs are being sidelined while we take this little foray 
into reproductive rights issues.
    A woman who chooses birth control as her contraceptive 
method is doing two things, in my mind: She is, number one, 
exercising her basic right to chose how to govern her own body, 
and, number two, by taking control of her reproductive health, 
she is acting to govern her own body in a very responsible 
manner.
    This woman and her doctor have made the decision that a 
prescription for birth control is in her best interests. Given 
that, I will say that a third party does not have the right to 
override the decision made by a woman and her physician, which 
is where this hearing comes into play.
    Simply put, our Small Business Committee is doing a 
disservice to women's rights by even holding this hearing. 
Moreover, it is going to cause more problems to small 
businesses in terms of litigation and as we look at all these 
other issues associated with this discussion.
    I have just a couple of questions, Mr. Chairman.
    Let me begin with Mr. Vander Bleek.
    It is your view, if I understand your testimony from the 
written as well your verbal comments, it is your view that 
pharmacies do not have an ethical obligation to protect women's 
health by providing medically necessary prescriptions. Do you 
think pharmacists should have the right to refuse any 
prescription they disagree with morally? For instance, what 
about drugs for people living with HIV or AIDS, Viagra, drugs 
derived from embryonic stem cell research? Couldn't the list of 
drugs objectionable to some pharmacists potentially grow quite 
long, and should there be any limits?
    Mr. Vander Bleek. In response to that, I think it is 
interesting that some people might want to confuse my position 
and say I am discriminating against a class of people or a 
particular medical condition of people. I am objecting to a 
medication and what that medication does.
    I have regard for the third person in the relationship. 
There is me. There is the expectant mother that comes in. And 
there is the live child that I have to recognize has the 
possibility of existing, and that my involvement in dispensing 
this prescription is involvement in the extinguishing of that 
life.
    With regard to embryonic stem cell research, I oppose that, 
too.
    With regard to treating other people's ailments, I have 
never had any issue with treating people for AIDS, for 
infertility, for treating people for incontinence or any other 
type of condition.
    Mr. Grijalva. Let me follow up with a hypothetical. As you 
are aware, the Christian Science religion teaches diseases 
should be treated through prayer, and worshippers have been 
known to refuse medical treatment and drugs.
    If I understand the premise, and correct me if I am wrong, 
correctly, the logical conclusion would be that a Christian 
Science pharmacist ought also to be allowed to deny all manners 
of drugs to patients based on his or her personal belief that 
medicine is not the appropriate way to treat a disease?
    Would you agree, and, if you don't agree, what is the 
difference?
    Mr. Vander Bleek. I would agree with that, but I also would 
submit that Christian Science pharmacist would have a very 
limited practice.
    Mr. Grijalva. I said hypothetical.
    Mr. Vander Bleek. Right. Right. This is interesting, if I 
can respond further to you, Congressman. Pharmacy is a very 
competitive marketplace. The pharmaciesthat compete directly 
against me use major media to advertise to my customers every 
evening. You can hardly watch 2 hours of network television in 
my community without being confronted with three or four 
advertisements by pharmacies who want your business. There is 
not even a necessity for me to refer business anywhere, because 
everyone knows who all the other competitors are.
    In the case of where we have been confronted with a 
prescription for Plan B and we respectfully have returned the 
prescription, the patient has no problem at all finding another 
pharmacy. In fact, they could probably give me directions to 
the other pharmacies. So we are not denying access to anything.
    With respect to the contention that somehow I am inserting 
myself in a patient-physician relationship, nothing could be 
further from the truth. Indeed, what I am requesting here, 
government to stop trying to pull me into that relationship. I 
stand here. They have their relationship. I don't want to be 
involved in products that might endanger human life, and I 
request that I can still own a pharmacy, a small business in 
the State of Illinois and be excerpted from that requirement 
that I need to be pulled into that particular relationship.
    Chairman Manzullo. Congressman King.
    Mr. King. Thank you, Mr. Chairman.
    I direct my first question to Mr. Vander Bleek. Mr. Vander 
Bleek, in your testimony, you define the process of the 
beginning of life. Could you define again for this committee 
your position on when life begins?
    Mr. Vander Bleek. My position is a scientific position of 
when life begins: Two 23-chromosome gametes,one from a male, 
one from a female human being, meet and form a 46-chromosome 
human being. It is at that point where that is a new and unique 
individual, not half mom, half dad, but part of each, and a new 
independent human being. That embryo, if it does not perish, 
will never become anything else. It will never become another 
animal life form. It will not become a baseball bat or a 
banana. It will become a human being.
    So I have moral concern for all human beings at every stage 
of life, and I reject that in my practice of pharmacy, which 
has been one that preserves human life, the sanctity of human 
life, and one that has regard for people's health care, should 
become one that also involves extermination of same.
    Mr. King. Mr. Vander Bleek, would you describe the length 
of time that that takes? Could that be described within an 
instant?
    Mr. Vander Bleek. Within an instant.
    Mr. King. Ms. Nix, would you describe an instant that your 
position would be of when life begins?
    Ms. Nix. My official position? I can't do that on behalf of 
the Governor. I am sorry.
    Mr. King. So you can't take a position on behalf of the 
Governor as to when life begins?
    Ms. Nix. Correct. I don't know what his personal opinion is 
on that.
    Mr. King. Therefore, the Governor has a position aside from 
that, I would think then.
    Mr. Patton?
    Mr. Patton. Not being a medical person--and I think this is 
really the crux of the debate here, is, when does life begin? 
Is it the implantation of the egg in the womb, or is it the 
fertilization of the egg by the sperm? I think that is the 
basis which really draws a lot of the debate, is the 
uncertainty of when life begins. I think it is an individually 
held belief.
    Mr. King. Not a scientific fact. It is an individually held 
belief?
    Mr. Patton. I believe so, yes.
    Mr. King. Then would you disagree with Mr. Vander Bleek?
    Mr. Patton. I wouldn't disagree with him, no. I wouldn't 
disagree with him.
    Ms. Velazquez. Would the gentleman yield?
    Mr. King. No, thanks, I have only a few minutes.
    But the science that we have heard here does come from Mr. 
Vander Bleek. So I am going to then ask if Ms. MacLean could 
offer some science to put some insight into this?
    Ms. MacLean. Mr. King, I don't believe I can speak on 
behalf of APHA on that.
    Mr. King. Thank you, and I am not going to ask you, Ms. 
Kelly, because I don't think that you have represented yourself 
as being a professional in this field.
    So I do think that is the crux of this matter. And there 
are two central points here. One of them is, when does life 
begin, and science has continually been reestablishing a 
religious belief that the Catholic Church has held forever, and 
that is Mr. Vander Bleek's position, for the reason that 
Catholic scientists have examined this as thoroughly and more 
thoroughly than I suspect Mr. Vander Bleek has.
    So I think it is a clear scientific fact that life has to 
begin at some instant, and this is the only instant that can be 
described, and so if we are going to err on the side of life, 
we must not take the life after the point of conception.
    So the next question then is, if it is a religious 
position, as maybe was implied by Mr. Patton, then do we have 
religious freedom in this country, or don't we?
    So I will focus the next question then to Ms. Nix, and that 
is, I have here a copy of the conscience clause in the Illinois 
statute, and I don't have it thoroughly covered here or the 
substance of it necessarily, but I would ask you to speak to 
it. Under conscience, part of the definition is a sincere set 
of moral convictions arising from belief in and relation to 
God.
    So how does your Governor's office reconcile the conscience 
clause with religious held beliefs and the scientific facts of 
when life begins, especially because I think there has been a 
reference made to the drugs that might be used for suicide?
    Ms. Nix. The rule, as the Governor has put it in place, 
does not apply to an individual pharmacist. It applies to a 
pharmacy. So the pharmacy that is in the business of providing 
prescription drugs just needs to make sure that the 
prescription gets filled without delay or returned, if the 
patient would prefer that. The pharmacy then will have to 
figure out--
    Mr. King. Excuse me. So if the pharmacy takes the position 
they are going to provide contraceptives but not Plan B morning 
after pills, then they will be compelled though by that order, 
regardless of whether it is a pharmacy position or a pharmacist 
position?
    Ms. Nix. Right. Because we are relying on the Food and Drug 
Administration's definition of contraceptive.
    Mr. King. So you would exempt it then somehow by a 
Governor's rule, the conscience clause in the statute?
    Ms. Nix. No, the Food and Drug Administration says that 
contraceptives prevent pregnancy, so the class of prescriptions 
that are in the rule are contraceptives that prevent pregnancy. 
So, the situation is the pharmacy who is selling prescription 
drugs needs to make sure that it gets covered. They can have 
somebody else come in. They can have a different pharmacist on 
call. There are a lot of different things they can do.
    In an individual case where there is a belief that because 
Plan B is basically the same thing as monthly pills, just in a 
different dose, that if the belief of that individual 
pharmacist-pharmacy owner is that contraceptives are 
problematic for them, then we don't require that.
    Mr. King. Thank you. I see I am out of time. I would 
reiterate though it has been described as emergency 
contraception, but it is an early abortion. Thank you.
    Chairman Manzullo. Congresswoman Sanchez.
    Ms. Sanchez. I find it highly amusing that we are debating 
when life begins in the Small Business Committee. I would 
submit that that is probably a discussion left better for other 
committees.
    Ms. MacLean, I want to jump right into the questions here 
because I have many, and I am shocked and appalled at some of 
the statements that have been made by some of the members here 
and some of the testimony today.
    But can you tell me the position of the AMA and the FDA 
with respect to Plan B? Do they consider that an abortion pill?
    Ms. MacLean. I can't speak on behalf of the other 
organizations.
    Ms. Sanchez. Okay. You don't know the answer.
    Ms. Nix.
    Ms. Nix. No, the FDA and the AMA do not. Contraceptives 
prevent pregnancy, and, like I mentioned, RU-486 is not a 
contraceptive, and it is not part of this rule. RU-486 can only 
be administered by a doctor.
    Ms. Sanchez. Thank you, Ms. Nix.
    Mr. Vander Bleek, I am sure you are aware that the 
chemicals contained in monthly birth control prevent 
fertilization. Are you also aware that the chemicals in 
emergency contraception, also known as Plan B, also prevent 
fertilization, and do you realize that if you are selling 
monthly contraceptives, that you are already selling emergency 
contraceptives, that the only difference is the packaging and 
the dosage?
    Are you aware of that? A yes or no will suffice.
    Mr. Vander Bleek. Well, you had several questions there. To 
which do you want me to answer?
    Ms. Sanchez. Are you aware that the chemicals--
    Mr. Vander Bleek. I am aware that the chemicals are the 
same.
    Ms. Sanchez. Are the same. And do you realize what the 
difference is in the dosage on the packaging?
    Mr. Vander Bleek. I am aware of that, and also the intent 
of when it is to be taken in the directions.
    Ms. Sanchez. The right to obtain birth control without 
being--
    Chairman Manzullo. The witness will be allowed to complete 
his answer.
    Ms. Sanchez. I asked specifically for a yes or no answer. I 
have very limited time to ask questions. I would like the right 
to ask them without interference.
    Chairman Manzullo. Proceed. But if you cut him off again, I 
am going to give him time to answer.
    Ms. Sanchez. The right to obtain birth control without 
interference has been upheld by the Supreme Court. 
Additionally, polls show that eight in ten Americans say 
pharmacists who personally oppose birth control for religious 
reasons should not refuse to sell oral contraceptives.
    The America Medical Association has also taken the position 
that pharmacists should not be allowed to use discretion in 
determining what drugs they will dispense if there is a valid 
and legal prescription.
    My question to you, which is again a yes or no question, do 
you think the Supreme Court, a majority of Americans and the 
AMA are wrong?
    Mr. Vander Bleek. I do.
    Ms. Sanchez. Mr. Vander Bleek, it is estimated that 95 
percent of American women use some form of birth control at 
some point in their lives. Now, I am sure that your community 
has a large percentage of women who use some form of monthly 
birth control. Basically, there is a captive market for 
prescription birth control that would provide your business 
with a steady monthly flow of income. Do you sell contraceptive 
birth control?
    Mr. Vander Bleek. I do.
    Ms. Sanchez. Do you sell condoms in your pharmacy?
    Mr. Vander Bleek. I do.
    Ms. Sanchez. Mr. Vander Bleek, you realize that if you 
don't want to dispense emergency contraceptive in the form of 
Plan B, which contains the exact chemical compound as monthly 
birth control, the Governor's order gives you the option to 
stop selling birth control altogether?
    Mr. Vander Bleek. I don't read that in the statute there, 
but--
    Ms. Sanchez. Perhaps Ms. Nix could enlighten us?
    Ms. Nix. Yes, that is the case.
    Mr. Vander Bleek. It is not in the statute, though, Ms. 
Nix. It is in your summary, but it is not in the statute.
    Ms. Sanchez. Would you support the rule if it specifically 
said that?
    Mr. Vander Bleek. No, I don't support the rule at all.
    Ms. Sanchez. So even though it is the same chemical 
compound, and if you morally were opposed to dispensing 
emergency contraceptive and it gave you the option and said if 
you are morally opposed to contraceptive in that form, you 
could opt out of having to provide it, if you simply agree to 
stop providing contraceptive in pill form, you would still not 
support the rule?
    Mr. Vander Bleek. There is a product that is used to help 
reline the stomach in cases of stomach ulcers that also causes 
a spontaneous abortion. It is the same chemical. Do I dispense 
it to cause a spontaneous abortion? No, I don't. Do I dispense 
the same chemical to help someone's stomach? Yes, I do.
    Ms. Sanchez. The question is, would you support the rule 
and your answer was--yes or no again?
    Mr. Vander Bleek. I would support the rescinding of the 
rule.
    Ms. Sanchez. Thank you.
    Ms. Kelly, I want to talk to you a little bit about 
emergency contraceptives, and I am very sorry for the 
experience you have had. With respect to the fact that having 
to travel around to find somebody who would fill your 
prescription, I have heard one member on this panel describe 
that as a "minor inconvenience."
    Where emergency contraception is concerned, isn't there is 
a window of opportunity in which it is effective and a window 
of opportunity in which it is not?
    Ms. Kelly. Yes, 72 hours.
    Ms. Sanchez. So having to drive perhaps in a rural 
community to other cities to find somebody who could perhaps 
fill that prescription, it could actually foreclose that window 
of opportunity for it to be effective, is that not correct?
    Ms. Kelly. Yes.
    Ms. Sanchez. That is a decision that your doctor discussed 
with you?
    Ms. Kelly. Yes.
    Ms. Sanchez. I have no other questions. I see my time has 
expired.
    Chairman Manzullo. Congressman Fortenberry.
    Mr. Fortenberry. Well, let me first thank you, Mr. 
Chairman, for holding this important hearing. I don't think 
discussion of an issue, no matter how delicate, is 
inappropriate, even in a forum such as this, which is primarily 
involving small business, but clearly, we have a small business 
impact here.
    Mr. Vander Bleek, I would submit to you that your 
definition of life is one that is found in embryology textbooks 
in medical schools, so I appreciate what you have said today.
    I think again, in dealing with a sensitive issue such as 
this, it is important to pull back and look at the principle at 
stake. We have heard the word "discrimination" thrown about 
quite frequently here on the panel. Were you being 
discriminated against by the Governor and the State of 
Illinois?
    Mr. Vander Bleek. I absolutely believe I am.
    Mr. Fortenberry. Let's apply the principle further. Could 
then the Governor in the State of Illinois impose its will on a 
doctor, for instance, who might object to certain prescriptions 
because of sound medical reasoning?
    Mr. Vander Bleek. I don't know why that couldn't be done if 
this can be done.
    Mr. Fortenberry. I think, again, that is one of the reasons 
to look at the issue carefully, in the context not only of 
small business but the larger issue of how it affects other 
medical providers. Thank you for coming today.
    Chairman Manzullo. I have a question to Ms. Nix, and that 
is, you say the regulation is aimed only at pharmacies and not 
pharmacists. But what do you do when it is one and the same, 
when there is only one pharmacist in the pharmacy? Clearly, it 
is the intent that relates to that pharmacist. What do you do 
in a case like that? Why don't you exempt them?
    Ms. Nix. The same rules would apply.
    Chairman Manzullo. I don't think you understand my 
question. You took pains to explain that this regulation is 
aimed at the retail establishment.
    Ms. Nix. Right.
    Chairman Manzullo. And not the individual pharmacist.
    Ms. Nix. Right. Because in many cases--
    Chairman Manzullo. Let me finish my question. But in Mr. 
Vander Bleek's case, and lots of pharmacies, especially small 
town pharmacies across rural Illinois, the pharmacy equals the 
pharmacist. What do you do in a case like that?
    Ms. Nix. Well, that is why there is a provision that says 
if that pharmacy-pharmacist has a moral objection with 
contraceptives, they don't have to carry it.
    Chairman Manzullo. See, the problem here is this: The 
problem is that it is Mr. Vander Bleek's right of conscience 
that he is invoking. It is a subjective intent. Arguments as to 
whether or not it is the same chemical or when life begins are 
interesting, but they are academic. Isn't that essentially what 
a right of conscience is, is what goes on inside your own mind, 
regardless of whether or not there is academic or social 
verification?
    Ms. Nix. Yes.
    Chairman Manzullo. Well, that is him. He may be the only 
pharmacist in the State of Illinois that believes that by 
issuing this it is an abortifacient, but yet it is his 
conscience.
    Ms. Nix. I know. But it is not an abortifacient. That is a 
definition of the Food and Drug Administration.
    Chairman Manzullo. But when you read the Health Care Right 
of Conscience Act, let me read to you again what "conscience" 
means. It says ""Conscience means a sincerely held set of moral 
convictions arriving from belief in and relation to God, or 
which, though not so derived, arises from a place in the life 
of its possessor parallel to that filled by God among adherents 
to religious faith."
    That is a subjective standard. Wouldn't you agree?
    Ms. Nix. Yes.
    Chairman Manzullo. So you disagree with his decision as to 
when life begins--
    Ms. Nix. No, I don't disagree with his position. I just 
said I am not taking a position on behalf of the Governor.
    Chairman Manzullo. I understand. The Governor disagrees 
when life begins. But it is the pharmacist's conscience that 
has to be protected, isn't that correct?
    Ms. Nix. The pharmacy, if you are a pharmacy in the 
business of providing prescription drugs, our rule applies to 
you and says you need to figure out a way to get it. If you 
would like to have another pharmacist come in and do it, that 
is fine.
    Chairman Manzullo. What if it is a doctor in a small town, 
and someone goes to that doctor for an abortion? The conscience 
act applies, doesn't it?
    Ms. Nix. Right. That is correct.
    Chairman Manzullo. Should it be any different for a 
pharmacist who believes that abortion is wrong?
    Ms. Nix. See, the pharmacist isn't allowed to prescribe an 
abortificant, only contraceptives, and that is what the rule 
applies to.
    Chairman Manzullo. That means you have made the decision.
    Ms. Nix. I haven't made a decision. I am just relying on 
the Food and Drug Administration's classification of 
contraceptives.
    Chairman Manzullo. I understand that. The issue here is 
what goes on in his mind as a sincerely held belief, such as a 
conscientious objector. There are people that objected to us 
going into World War II when we were invaded. The issue wasn't 
whether or not their objection was well-founded in fact or 
theology, but it is what was entertained within their own mind, 
and that is protection of the individual's conscience. I think 
that is what he is trying to say. Wouldn't you agree, Mr. 
Vander Bleek?
    Mr. Vander Bleek. I would.
    Chairman Manzullo. I am out of time here. We can do a 
second round.
    Ms. Velazquez?
    Ms. Velazquez. Mr. Vander Bleek, you say that you disagree 
with the decision of the Supreme Court that upheld the right to 
obtain birth control without interference. But the problem that 
I have is, or maybe you can help me understand, why is it that 
it is hard for some people to understand that you should make 
money off of one type of birth control for women and yet refuse 
to sell another, particularly in light of the fact that the 
American Medical Association says that there is no distinction?
    Mr. Vander Bleek. Well, I think it is important to know 
that regular birth control is very different than emergency 
contraceptive, as I was not able to enter into Ms. Sanchez's 
discussion. But regular birth control pills are taken daily as 
directed by the manufacturer to be taken to stimulate 
gonadotropin hormone blocking and to stop ovulation and to stop 
fertilization and the creation of a new human being. Emergency 
contraceptive has only one FDA indication, to be taken after 
unprotected sex or contraceptive failure.
    My question and the unanswered scientific question is, what 
happens to the potential of a live human embryo when the woman 
is doing these large blasts of hormones? Now, could it work as 
a contraceptive? Sure. But could it also work as abortifacient? 
Who knows? It hasn't been studied, and it has no concern to 
those who are studying the product. It has concern to me.
    So with regard to how much money I might make on 
contraceptives, I will submit that I make precious little, if 
any. But in the case of the two products being grouped together 
for the politics of promoting abortion and stuffing it down the 
throats of the pharmacy owner, I object to that, too.
    Also at issue here, that hasn't been mentioned, I don't 
want to take too much of your time, Ms. Velazquez, but the idea 
of pregnancy and the definition of a contraceptive and that 
pregnancy doesn't begin until a live human embryo embeds into 
the woman's uterus is preposterous in thinking that is the only 
time when that embryo has any value to the rest of us.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Chairman Manzullo. Congresswoman Musgrave.
    Mrs. Musgrave. Thank you, Mr. Chairman.
    I noted in your testimony, Mr. Patton, where you spoke of 
women driving long distances from urban areas to go to a rather 
remote pharmacy to try to obtain Plan B prescriptions.
    Can you envision a way, with this kind of rule coming down, 
and Federal legislation pending, that pharmacists, if you will, 
will be targeted because they had a moral objection to filling 
these prescriptions?
    Mr. Patton. Absolutely. It is happening already.
    Mrs. Musgrave. I would like Mr. Vander Bleek to respond to 
that also, please.
    Mr. Vander Bleek. Well, I kind of didn't understand the 
question the way Mr. Patton did. Could you mention it again?
    Mrs. Musgrave. Certainly. I would be happy to.
    In his testimony, he alluded to the fact that women who 
wanted to have a Plan B, if you will, prescription filled, 
would be in an urban area, but yet drive out to a remote 
pharmacy, if you will, to get the prescription filled or to ask 
that it be filled.
    I was just wondering if you thought individuals, as 
yourself for instance, could be targeted in this kind of a 
situation?
    Mr. Vander Bleek. Well, I believe that there might be 
individuals that would want to target me, but I would also like 
to submit that people that know me and know my family in the 
communities that we serve don't really have any interest in 
pushing this issue.
    We dealt with 15,000 different individual patients in our 
pharmacies last year. The product has been on the market for 2 
years. We only had two requests for the product. Both were 
handled confidentially and the patients had absolutely no 
complaint with our service. So I don't think there is a big 
demand or, either, a big issue on it, other than the Governor's 
order.
    Mrs. Musgrave. When you have a rule or if you have Federal 
legislation pending now, it could become a big issue to you.
    Mr. Vander Bleek. It is a big issue right now in the State 
of Illinois alone, absolutely.
    Mrs. Musgrave. Exactly.
    In regard to pharmacists humiliating a person that comes 
in, could you respond to that, please?
    Mr. Vander Bleek. I don't support that at all. In fact, if 
I really were to investigate the concerns that the other 
witness had here and if I really found that the pharmacist had 
intent to humiliate and was trying to humiliate the patient, I 
would discharge them from my staff. I don't think that is 
appropriate in any case in a pharmacy.
    Mrs. Musgrave. How important is privacy?
    Mr. Vander Bleek. Well, we are federally regulated and 
mandated to keep the patient's health information completely 
private, and we comply with all those laws and regulations, in 
addition to more that we have in our own policies.
    Mrs. Musgrave. Thank you, Mr. Vander Bleek.
    Thank you, Mr. Chairman.
    Chairman Manzullo. Mr. Grijalva.
    Mr. Grijalva. Thank you.
    Mr. Patton, if I may ask you a couple of questions. In your 
testimony, you claim that a number of pharmacists in Illinois 
are rethinking their practice and some are considering moving 
out of the State. Do you know of any pharmacist that has either 
moved out of Illinois or plans to do so within the next year 
because of the Governor's order that we are talking about 
today?
    Mr. Patton. No, I don't have any specifics. But part of it 
will also be predicated upon the final ruling that will be 
promulgated before JCAR. This is information that has been 
provided to me; and as a matter of fact, even Mr. Vander Bleek 
I believe on CNN News referenced the fact that that might be an 
alternative he has to face.
    One of the other pharmacists, actually two of the 
pharmacists, have another lawsuit against the Governor. They 
are down in the Metro East area of St. Louis. She said she 
feels that is her only alternative to be able to continue 
practicing her profession, is to move out of State.
    Mr. Grijalva. Let me follow up on that. Perhaps one of the 
reasons that pharmacists are not actually moving out--is it 
because the order provides for some reasonable alternatives for 
pharmacists who may object to dispensing emergency 
contraceptives?
    There are alternatives that we discussed here today. Is 
that a mitigating factor to this exodus that you are 
predicting?
    Mr. Patton. I don't believe it is at this point because, 
again, as Ms. Nix has said, the rule as it is being promulgated 
requires the pharmacy to comply with the law which--therein the 
pharmacy, whoever it may be, is going to be dependent upon the 
pharmacist to be compliant with that. If the pharmacist chooses 
not to, then they are going to be caught between a rock and a 
hard place, between jeopardizing the potential for the pharmacy 
to be in noncompliance with the rule.
    That is part of the problem, the fact that the pharmacist 
who has the personal beliefs are going to ultimately be held 
accountable for the actions and therein possibly the discipline 
for the pharmacy.
    Mr. Grijalva. If I may, Ms. Nix, how does that accommodate 
those alternatives, how does that accommodate that pharmacist?
    Ms. Nix. Our intent in having the rule apply to the 
pharmacy is, in many instances there is more than one 
pharmacist on staff. So if in the course of business the 
pharmacy has figured out that they have one pharmacist that is 
uncomfortable with some prescription filling, they can make 
sure that there is someone on call to come in and do it. They 
can also ask--if the patient prefers, they can just get their 
prescription back and go somewhere else.
    What we want to make clear is, in many of these instances, 
these prescriptions can be for all kinds of things. At the JCAR 
hearing there was a case of a doctor prescribing emergency 
contraceptives to stop extremely heavy hemorrhaging. A woman, 
basically her life was at risk, and she was able to get the 
prescription in that case.
    We have focused a lot today on the birth control aspect of 
it, but a lot of these contraceptive drugs are used for other 
things, and in some cases an emergency contraceptive is used 
for other things, and those decisions are known between the 
woman and her doctor. We just want to make sure when she goes 
to a pharmacy, she is able to get her prescription filled.
    Mr. Grijalva. One last question, if I may, Mr. Patton, 
following up on the last point. Do you believe that a woman 
whose doctor prescribed birth control for medical reasons, 
other than to prevent pregnancy, for example, an ovarian cyst, 
should they also be denied medical care that their physician 
determined they need?
    Mr. Patton. No, they should not be denied medical care, by 
all means.
    Mr. Grijalva. Or the prescription to be dispensed?
    Mr. Patton. I understand. I was going to finish.
    But, you know, you can't usurp the right and moral 
conscience of the pharmacist at the same time. There again I 
believe it would be a personal belief.
    Mr. Grijalva. The premise we are talking about is 
pregnancy--for a second, let's say that--and the reason for the 
prescription is not to prevent pregnancy, but to deal with a 
very critical and perhaps emergency health situation. You would 
still agree that that denial is okay?
    Mr. Patton. As an association, there have been several 
references to the position of the AMA, and as of June of this 
year, the AMA supports the right of conscience for pharmacists 
to be able to step away from dispensing the medication. So it 
seems to me there has been some premise that the AMA supports 
the issuance of the contraceptives, but they too respect the 
right of conscience, and it specifically states that in their 
resolution.
    Mr. Grijalva. Based on your answer, that would extend to 
vaccines that were developed where the development was aided by 
the use of, let's say, fetal tissue?
    Mr. Patton. I don't have a position on that, sir.
    Chairman Manzullo. Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I wanted to make a little announcement to the committee. As 
I walked out of my office I saw a little sign on my press 
secretary's desk that says "former embryo." we do have an 
interest in the lives of embryos, and in fact we have had at 
least 81 "snowflake babies" that have been frozen for up to 9 
years that are now walking and talking and laughing and loving. 
And I have held three of them in my arms, and they are real, 
and I support the comments made by Mr. Vander Bleek with regard 
to that.
    But I turn to the testimony of Megan Kelly. Ms. Kelly, just 
a couple of issues. And I wanted to be gentle with you, because 
I know that you are in a territory you are probably not very 
comfortable with today.
    But I see that in your testimony you said a pharmacist's 
personal views do not belong in my health care. I think by now 
we have established that they are religious views on the part 
of the pharmacist as opposed to personal views. Would you 
concede that point?
    Ms. Kelly. No.
    Mr. King. Okay, then I won't debate that with you. I think 
that is clear, at least to me and most of this panel, that 
certainly Mr. Vander Bleek has some strongly held religious 
beliefs; and I think it fits well within the conscience clause 
of the Illinois code.
    But I turn to another point, and I quote from your written 
testimony. "as a consumer, I have a right to walk into any 
pharmacy in America and expect to have my prescription filled 
without unnecessary delays or discrimination."
    I would argue, at the time of that incident, it was not a 
right, but maybe a perception; there was that kind of a right 
as a consumer. That is one of the things about being a business 
person in business, that you have a right to run your business. 
There are rights that go with that, and if we impose government 
mandates on business of all kinds, whether it is this pharmacy 
issue here today, or whether it is--whether a carpenter can use 
a power nail gun as opposed to a hammer, any time we impose 
regulations, we are taking rights away from the entrepreneurs 
in this country. When we do that, we diminish the numbers of 
them, their profitability and their motivation for being part 
of this economy, with small business creating 80 percent of the 
new jobs in America.
    So I am very, very sensitive to new regulations being put 
upon people that are in business; and this right to walk into a 
pharmacy, I think, at that time was an erroneous assumption. 
But I would point out--and I think is implied here, if not 
clearly said--that an individual who was serving you, if they 
had used the kind of demeanor that is insisted upon by Mr. 
Vander Bleek, this would not have been an issue. Is that 
correct?
    Ms. Kelly. No, she was very polite.
    Mr. King. Really. So it was the point that she didn't 
deliver the Plan B for you upon request?
    Ms. Kelly. Correct. And my birth control.
    Mr. King. And you said, "I was shocked. I figured it had to 
be illegal."
    Ms. Kelly. Yes.
    Mr. King. I am astonished by that. But I am not going to 
belabor the point.
    I will say this then: You can take this same philosophy and 
you can extrapolate this on point after point after point. 
Anyone who can establish the political power and the leverage 
to move forward with this kind of philosophy and set aside a 
conscience protection, however it might have been contrived 
within the law and the rule, then you could also set aside, not 
just religious freedom, but many other beliefs as well.
    You could require bookstores to carry pornography; you 
could require all retail establishments in Illinois to carry 
Lotto cards and any other kind of gambling equipment there is; 
you could require anyone who sold soft drinks to also sell 
alcohol; you could require the pharmacist to sell euthanasia /
suicide drugs; you could require doctors to perform abortions, 
all under this same philosophy.
    So I see this progression of society, and I back myself up 
to being a young man who believed that we had freedoms that 
were in this institution, they were guaranteed to us and our 
birthright as Americans and an inherited right of people who 
attain citizenship here through legal means, to be protected in 
that, protected in our property rights, in our rights to 
conscience, in our rights to freedom of speech and assembly and 
religion and press; and this is a diminishment of those rights. 
And to hold the pharmacies responsible and require them to 
provide something that goes beyond their conscience, whether it 
is a pharmacy or a pharmacist, I think is a distinction without 
a difference.
    So I would go back to the conscience protection that is 
there and pose the question, Ms. Nix, does this set aside 
Illinois' conscience protection clause?
    Ms. Nix. I need to preface this by saying I am not an 
expert on the Illinois Health Care Conscience Act. It does not 
clearly cover pharmacists or pharmacies and there has been some 
attempt, I think, as Mike has mentioned, to have that covered. 
That is not the case right now.
    Mr. King. Excuse me. Do you then take exception with any of 
this progression in the diminishment of rights that I have used 
with regard to bookstore pornography, Lotto cards, alcohol, 
suicide or doctors performing abortions? Where would your 
governor draw the line?
    Ms. Nix. Well, pharmacies are in the business of providing 
prescription drugs. I would say that a retail store that sells 
soft drinks is not in the business of providing alcohol, so 
there is a difference. Class 1 retail pharmacies put themselves 
out there, they advertise that they fill prescriptions; and we 
are just saying if you advertise you fill prescriptions, you 
should fill the prescription.
    Mr. King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Manzullo. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Ms. Kelly, let's assume a hypothetical for a moment and 
let's assume that the emergency contraceptive that you were 
prescribed legally by your doctor was to prevent hemorrhaging. 
How do you think it would have put your health at risk if you 
would have had these delays in terms of trying to seek out a 
pharmacy that would provide that medication for you?
    Ms. Kelly. It would have greatly put my health at risk.
    Ms. Sanchez. Ms. MacLean, in certain situations it is 
appropriate to place restrictions on businesses if there is a 
clear public policy purpose, including efforts by the FDA to 
ensure, for example, that pharmacies don't sell unsafe drugs, 
or requiring that businesses comply with the Americans with 
Disabilities Act or even requiring farmers to avoid using 
certain pesticides.
    If the State of Illinois has determined that this is an 
important health issue, isn't it acceptable that they require 
pharmacies to dispense these drugs, and if the pharmacist 
chooses not to, the State does offer them alternatives?
    Ms. MacLean. I am not as familiar with your particular law, 
but it does look to me like they do provide alternatives.
    I talked about systems. That is what APJ believes. I mean, 
our policy supports it, a two-item policy, and we do believe in 
systems.
    Ms. Sanchez. You stated in your earlier testimony that you 
believe in balance.
    Ms. MacLean. I do believe in balance.
    Ms. Sanchez. Would you agree that some of the proposed 
changes being made to the Blagojevich order would accommodate 
some of these concerns that you discussed in your testimony? I 
am talking specifically about including accommodations that 
allow the pharmacist to have time to stock the drug or seeking 
another pharmacist to fill the order.
    Does it appear to you that there are at least some 
alternatives and some balance that is being maintained, or 
trying to be maintained?
    Ms. MacLean. I don't believe the pharmacy needs one more 
restriction or one more regulation. I think the business needs 
to be able to do what it does best, and that is care for 
patients.
    Yes, we have talked a lot about drugs, we have talked a lot 
about prescriptions, but truly what a pharmacist does is care 
for patients; and if a pharmacist must step away because of a 
conscience clause, that pharmacist still has the obligation to 
ensure that a woman gets what she needs.
    What I can tell you is, that is what I see day in and day 
out. Whether it is because we don't have this particular 
expensive drug on the shelf, if it is emergent, and that 
patient needs a drug, I can call five pharmacies and transfer 
the prescription. I can ensure I have taken care of that 
patient.
    If it is not emergent, you mentioned a 72-hour window, 
recent research shows that we can actually dispense emergency 
contraception for up to 120 hours. If it is not emergent, we 
can decide on what the best route is.
    But truly, pharmacists take care of patients.
    Ms. Sanchez. So if I am understanding your testimony 
correctly, you are saying that the regulation, even though it 
provides alternatives for pharmacies, that you are opposed to 
it because it is a regulation, despite the fact that there may 
be significant public policy interest towards making sure that 
women have access to getting their legally written 
prescriptions filled.
    Ms. MacLean. See, I don't believe that. Right now, women 
are being taken care of. The public policy supports that 
pharmacists are taking care of patients and providing access, 
which is one of the reasons that pharmacists all over the 
United States are really trying to look to the legislative 
arena for the support to be able to expand Pharmacy Practice 
Acts all throughout the United States, to be able to operate 
with a corroborative practice agreement.
    Ms. Sanchez. I am not sure that I have gotten an answer to 
that question, but I would like to move on to Ms. Nix.
    Ms. Nix, do you believe that the proposed changes to the 
order offer pharmacies alternatives and offer them ways to 
accommodate women who walk in with legally written 
prescriptions, so that they receive the medicines that they and 
their doctors have decided are necessary for their health and 
well-being?
    Ms. Nix. Yes, we believe that is the case.
    I think earlier someone mentioned about having to keep 
certain things in stock and things like that, that the rule 
does not require that. It just says if you don't have something 
in stock, you get it in the normal course of reordering. So I 
think it tries to strike the right balance between making sure 
that a woman's health care needs are met and the pharmacy's 
practice of dispensing the drugs.
    Ms. Sanchez. Thank you very much. I yield back.
    Chairman Manzullo. Ms. Nix, does the physician have a legal 
obligation to prescribe Plan B? Can you force a physician--
    Ms. Nix. No, I believe you cannot.
    Chairman Manzullo. Why should it be any different than a 
pharmacist being forced to dispense it?
    Ms. Nix. The physician and woman decide what is best in her 
health care. So if the physician decides Plan B is not the way 
to go because of the woman's health, then--
    Chairman Manzullo. What if he decides Plan B is not the way 
to go because of a conscience clause?
    Ms. Nix. I know that there are some physicians in Illinois 
that don't prescribe oral contraceptives at all because that is 
their belief, and that if the pharmacist had that belief, they 
don't have to carry contraceptives either.
    Chairman Manzullo. Let me be very specific. We are only 
talking about Plan B here.
    Ms. Nix. See, the problem is that we are not pharmacology 
experts. We are relying on the Food and Drug Administration for 
that.
    Chairman Manzullo. That is the problem. That is the 
problem, is there is a rule being made here where there is a 
lack of knowledge here--
    Ms. Nix. We are relying on the Food and Drug 
Administration.
    Chairman Manzullo. Let me finish.
    There is a lack of knowledge going on. The FDA is about as 
clear as mud. No one understands what that organization is 
doing. I am being very frank with you.
    The issue here is this: Under Illinois law, under the 
Health Care Right of Conscience Act, can a physician be forced 
to prescribe Plan B?
    Ms. Nix. No.
    Chairman Manzullo. Because of the doctor's conscientious 
belief; is that correct?
    Ms. Nix. That is correct.
    Chairman Manzullo. You would apply a different standard to 
pharmacists who would be forced to dispense it; isn't that 
correct?
    Ms. Nix. No, because we are not forcing--the rule applies 
to a pharmacy.
    Chairman Manzullo. Let's talk about that.
    Mr. Patton, in the State of Illinois, how many pharmacies 
have one pharmacist?
    Mr. Patton. I can't speak specifically, but the vast 
majority of the small, independent pharmacies, aside from the 
chain stores, they will oftentimes have one pharmacist.
    Chairman Manzullo. How many chain stores are there in 
Morrison, Illinois?
    Mr. Patton. I can't speak to that.
    Chairman Manzullo. Mr. Vander Bleek, how many pharmacies in 
Morrison, Illinois?
    Mr. Vander Bleek. There is one pharmacy in Morrison, 
Illinois.
    Chairman Manzullo. Would you, Ms. Nix, entertain the 
thought that you would exempt these sole proprietors? I mean, 
they can't rely on anybody else within their own store.
    Ms. Nix. If they have a moral conscience objection to 
contraceptives, that is fine.
    Chairman Manzullo. No, I am talking about Plan B.
    Ms. Nix. But the problem is that FDA categorizes Plan B 
as--
    Chairman Manzullo. No, I am talking about what is in his 
mind.
    Ms. Nix. Plan B is monthly pills, just in a different 
dosage.
    Chairman Manzullo. You have made the decision to determine 
the conscience, whether or not the moral conscience of every 
pharmacist in the State of Illinois should agree with your 
statement, because you are saying that he cannot invoke the 
conscience clause of the Health Care Right of Conscience Act in 
order to keep from dispensing that particular drug.
    Ms. Nix. Pharmacists are not specifically included in that 
act.
    Chairman Manzullo. I would take note of that, Mr. Patton, 
and I would take note of the record that pharmacists are not 
included in the Right of Conscience Act.
    Ms. Nix. They have offered amendments.
    Chairman Manzullo. I would suggest you better do more than 
that because what you are going to see is, you are going to see 
the collapse of small-town pharmacies. This is a Small Business 
Committee.
    Mr. Patton. That is part of the reason I am here, sir.
    Chairman Manzullo. That is one of the reasons we are here.
    With all due respect, I don't think you understand that 
pharmacists equal pharmacies in most pharmacies in the State of 
Illinois in the rural areas. There is just one person there 
working in one store, who doesn't have associates, who is not 
part of a bigger drugstore.
    You are not protecting that individual's right of 
conscience, because you have determined that he cannot invoke 
the right of conscience based upon a moral belief that this may 
or may not be an abortifacient, and the jury is out as to 
whether or not it is.
    It is his mind, and it is important, and I think that a 
pharmacist should have the same right not to dispense as a 
doctor should have not to prescribe. It is an individual 
decision based upon a subjective intent within the mind of that 
individual.
    Ms. Kelly, you are doing a great job over there. All of you 
witnesses are doing a great job. Let me have some dialogue 
here.
    Ms. Nix, Ms. Kelly was referred to another pharmacy that 
was across town. That is St. Charles; is that correct, Ms. 
Kelly?
    Ms. Kelly. Yes.
    Chairman Manzullo. And how big is St. Charles, about 30,000 
people?
    Ms. Kelly. Yes.
    Chairman Manzullo. Then how far was it from the pharmacy 
where you were denied this prescription to the secondary 
pharmacy?
    Ms. Kelly. Actually, I went to the Jewel-Osco to start out 
with, and that was in St. Charles, and I ended up going to a 
Walgreen's that was in Geneva, probably like 20 minutes.
    Chairman Manzullo. Okay. So it was 20 minutes apart.
    So the situation that Ms. Kelly gave would be how the 
regulation would operate; is that correct, Ms. Nix?
    Ms. Nix. In that situation, the Osco should have made sure 
that there was someone on staff that would have filled the 
prescription and could have offered Ms. Kelly the option: We 
will bring in another pharmacist, they will be in in 10 
minutes; or would you prefer to take your prescription and go 
elsewhere?
    Chairman Manzullo. You would bring a pharmacist in from 
another store?
    Ms. Nix. Or another person on the staff.
    Chairman Manzullo. Referring her to another nearby location 
would not satisfy the requirements of the statute?
    Ms. Nix. If the patient would like that, that would be 
acceptable. That has to be the patient's choice though.
    Chairman Manzullo. What this would say is, there has to be 
a pharmacist available to come to the store in order to make 
the prescription filled, as opposed to asking the customer to 
go to another store that is nearby.
    Ms. Nix. They could ask that patient which she preferred.
    Chairman Manzullo. Where do you see that in the statute?
    Ms. Nix. It says, at the request of the patient, the 
prescription can be returned at the request of the patient.
    Chairman Manzullo. So she could have insisted that they 
bring somebody in?
    Ms. Nix. Well, right now her complaint is being 
investigated by the Department of Financial Regulation, so we 
can't go into all the details.
    Chairman Manzullo. In Mr. Vander Bleek's case, if somebody 
came to you and said they wanted that prescription, is there 
anybody you could call in, Mr. Vander Bleek?
    Mr. Vander Bleek. In all my pharmacies, all the pharmacists 
are conscientious objectors. We have an ongoing effort to 
attempt to get pharmacists to come out into our rural areas to 
work in our pharmacies. It is an ongoing recruiting effort.
    We know what Walgreen's pharmacists in the city of Chicago 
are earning in their last contract because it has been 
published. They have been out on strike. I would like to tell 
you that our compensation that we are offering young 
pharmacists is competitive and, indeed, most of the times 
trumps what Walgreen's is paying their people; and we still 
can't get people to come out to the rural area to practice 
pharmacy.
    Chairman Manzullo. So no one would be available to cover?
    Mr. Vander Bleek. No one is available, and it is not 
practical. It is not practical for business to try to procure 
these pharmacists. Would I not possibly be violating these 
people's civil rights by saying to them, You can only be on my 
staff if you would dispense Plan B and you don't have a 
religious problem with abortifacients? Would I not get myself 
in some trouble with that as well?
    See, that is the whole thing. How do I procure these 
pharmacists? How do I make this business run? How do I keep 
giving access to people in the State of Illinois? And if I want 
to follow the rule of the State of Illinois and rid my 
pharmacies of all contraceptives so that I can be exempted from 
this rule, what does that do to the access to other 
contraceptives of people out in the rural area where I 
practice?
    All of this talk about having to go somewhere for Plan B, 
what about having to go to somewhere for your regular monthly 
contraceptive prescription because now my four pharmacies don't 
carry them?
    Chairman Manzullo. Ms. Velazquez.
    Ms. Velazquez. Thank you.
    Mr. Vander Bleek, would you oppose a requirement that you 
notify potential customers in advance, perhaps by a sign on 
your front door, or at the pharmacy counter, that the store 
would not fill a prescription so that individuals can decide 
whether to patronize the store or not?
    Mr. Vander Bleek. Generally, I oppose--
    Ms. Velazquez. Yes or no.
    Mr. Vander Bleek. Generally, I oppose requirements on my 
business and would rather do that in a way that we might--
    Ms. Velazquez. Thank you. So you would support that type of 
provision?
    Mr. Vander Bleek. Yes, but not a requirement. I might do it 
for patient--you know, for their own use.
    Ms. Velazquez. Do you have a sign in your pharmacies?
    Mr. Vander Bleek. No. We are not allowed not to stock the 
product right now. So--
    Ms. Velazquez. Thank you.
    Ms. Nix, would you please clarify that they cannot put a 
sign in their door to say that they will not sell?
    Ms. Nix. Pat, is that right?
    Mr. Hughes. There is no--there is no regulation of their 
communication to the patients in that regard. There are some 
minimum things that the pharmacy must advertise regarding hours 
and things of that nature. But that kind of extra communication 
to the patient would be in the discretion of the business.
    Ms. Velazquez. And if they choose to do it, can they do it?
    Mr. Hughes. Under Illinois law, nothing would prevent them. 
Yes.
    Ms. Velazquez. Nothing would prevent.
    Ms. Nix, under the order, if a pharmacy does not sell 
contraceptives, can they be forced to sell plan B?
    Ms. Nix. No.
    Ms. Velazquez. They are not?
    Ms. Nix. No, if they don't sell contraceptives, they don't.
    Ms. Velazquez. Ms. MacLean, I understand that you object to 
the Illinois order because you believe that a voluntary 
structure could better meet the needs of patients without 
compromising the objections of pharmacists.
    However, what would you propose if pharmacists in certain 
parts of the State all choose not to participate? What options 
will that leave a patient?
    Ms. MacLean. Well, I think that entails having a system 
that is proactive in place already, and so the pharmacists need 
to talk with the primary care providers, whether it is a 
physician or a nurse practitioner or a PAC to have some kind of 
a plan or system in place.
    Could I just clarify one thing? I can speak to how much 
small business would be impacted if, in fact, we all had to 
have on-call pharmacists.
    Ms. Velazquez. But how that proactive plan will handle this 
equation if all--a large part of pharmacists opt out?
    Ms. MacLean. Because, for example, my friend in Republic, 
Washington, would have a system in place whereby the nurse 
practitioner knows that she is not carrying Plan B, and so that 
would be dispensed out of her office, for example.
    Ms. Velazquez. Ms. Kelly, we have heard from opponents 
that, under the Governor's order, if the pharmacy chooses to 
comply by not offering any contraceptive, any contraception, 
they claim that it will have the unintended consequence of 
limiting women's options, causing them to drive 50 miles or 
more.
    As a consumer, do you think this is a valid reason for 
voiding the order?
    Ms. Kelly. No, not if people have to travel so far to get 
the prescription, because more likely than not, they are not 
going to bother using the prescription. Then where are they?
    Ms. Velazquez. Okay.
    Thank you, Mr. Chairman.
    Chairman Manzullo. Thank you. I am going to ask that this 
transcript be typed up as soon as possible and sent to every 
legislator in the State of Illinois, to the Governor's office 
to demonstrate, if anything, that this piece of legislation or 
proposal is not clear, that there are standards here that 
perhaps are not being met for the purpose of trying to maintain 
these pharmacies in small towns.
    I represent nine counties, and in six of those counties, 
the counties are losing population. People are leaving, the 
pharmacies are closing, along with other retail businesses. The 
last thing that we need is to--especially in these very 
conservative and rural areas in America, in Illinois, place 
upon the pharmacist yet another reason to close the shop. We 
all know what it is like when the local pharmacy closes down. 
It is one of the most difficult things in the world.
    Let me commend each of the witnesses. None of you has ever 
testified before Congress before. Your answers are clear, 
crisp, when you didn't know, you said you didn't know. When you 
wanted to answer with one word, you did that. You were very 
generous with your time.
    Ms. Kelly, Ms. MacLean, Mr. Patton, Ms. Nix, Mr. Vander 
Bleek, thank you for coming to Washington.
    This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T2612.001
    
    [GRAPHIC] [TIFF OMITTED] T2612.002
    
    [GRAPHIC] [TIFF OMITTED] T2612.003
    
    [GRAPHIC] [TIFF OMITTED] T2612.004
    
    [GRAPHIC] [TIFF OMITTED] T2612.005
    
    [GRAPHIC] [TIFF OMITTED] T2612.006
    
    [GRAPHIC] [TIFF OMITTED] T2612.007
    
    [GRAPHIC] [TIFF OMITTED] T2612.008
    
    [GRAPHIC] [TIFF OMITTED] T2612.009
    
    [GRAPHIC] [TIFF OMITTED] T2612.010
    
    [GRAPHIC] [TIFF OMITTED] T2612.011
    
    [GRAPHIC] [TIFF OMITTED] T2612.012
    
    [GRAPHIC] [TIFF OMITTED] T2612.013
    
    [GRAPHIC] [TIFF OMITTED] T2612.014
    
    [GRAPHIC] [TIFF OMITTED] T2612.015
    
    [GRAPHIC] [TIFF OMITTED] T2612.016
    
    [GRAPHIC] [TIFF OMITTED] T2612.017
    
    [GRAPHIC] [TIFF OMITTED] T2612.018
    
    [GRAPHIC] [TIFF OMITTED] T2612.019
    
    [GRAPHIC] [TIFF OMITTED] T2612.020
    
    [GRAPHIC] [TIFF OMITTED] T2612.021
    
    [GRAPHIC] [TIFF OMITTED] T2612.022
    
    [GRAPHIC] [TIFF OMITTED] T2612.023
    
    [GRAPHIC] [TIFF OMITTED] T2612.024
    
    [GRAPHIC] [TIFF OMITTED] T2612.025
    
    [GRAPHIC] [TIFF OMITTED] T2612.026
    
    [GRAPHIC] [TIFF OMITTED] T2612.027
    
    [GRAPHIC] [TIFF OMITTED] T2612.028
    
    [GRAPHIC] [TIFF OMITTED] T2612.029
    
    [GRAPHIC] [TIFF OMITTED] T2612.030
    
    [GRAPHIC] [TIFF OMITTED] T2612.031
    
    [GRAPHIC] [TIFF OMITTED] T2612.032
    
    [GRAPHIC] [TIFF OMITTED] T2612.033
    
    [GRAPHIC] [TIFF OMITTED] T2612.034
    
    [GRAPHIC] [TIFF OMITTED] T2612.035
    
    [GRAPHIC] [TIFF OMITTED] T2612.036
    
    [GRAPHIC] [TIFF OMITTED] T2612.037
    
    [GRAPHIC] [TIFF OMITTED] T2612.038
    
    [GRAPHIC] [TIFF OMITTED] T2612.039
    
    [GRAPHIC] [TIFF OMITTED] T2612.040
    
    [GRAPHIC] [TIFF OMITTED] T2612.041
    
    [GRAPHIC] [TIFF OMITTED] T2612.042
    
    [GRAPHIC] [TIFF OMITTED] T2612.043
    
    [GRAPHIC] [TIFF OMITTED] T2612.044
    
    [GRAPHIC] [TIFF OMITTED] T2612.045
    
      

                                 <all>
</pre></body></html>
